App. 1
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
CONFEDERATED TRIBES AND
BANDS OF THE YAKAMA NATION,
a sovereign federally recognized
Native Nation,

No. 19-35199
D.C. No. 1:18-cv03190-TOR.

Plaintiff-Appellant,

OPINION

v.
YAKIMA COUNTY, a political subdivision of the State of Washington; CITY OF TOPPENISH, a
municipality of the State of
Washington,
Defendants-Appellees.
Appeal from the United States District Court
for the Eastern District of Washington;
Thomas O. Rice, Chief District Judge, Presiding
Argued and Submitted March 3, 2020
Seattle, Washington
Filed June 29, 2020
Before: Sandra S. Ikuta, Ryan D. Nelson, and
Danielle J. Hunsaker, Circuit Judges.
Opinion by Judge R. Nelson

App. 2
COUNSEL
Anthony S. Broadman (argued) and Joe Sexton,
Galanda Broadman, Seattle, Washington; Ethan
Jones, Marcus Shirzad, and Shona Voelckers, Yakama
Nation Office of Legal Counsel, Toppenish, Washington; for Plaintiff-Appellant.
Kirk A. Ehlis (argued), Menke Jackson Beyer LLP, Yakima, Washington, for Defendant-Appellee City of Toppenish.
Don L. Anderson and Paul E. McIlrath, Prosecuting Attorney, Prosecuting Attorney’s Office, Yakima, Washingon, for Defendant-Appellee Yakima County.
Stacy Stoller (argued), William B. Lazarus, Amber
Blaha, and Rachel Heron, Attorneys; Eric Grant, Deputy Assistant Attorney General; Jeffrey Bossert Clark,
Assistant Attorney General; Environment and Natural
Resources Division, United States Department of Justice, Washington, D.C.; for Amicus Curiae United
States of America.
Kristen Mitchell, Deputy Attorney General; Robert W.
Ferguson, Attorney General; Office of the Attorney
General, Olympia, Washington; for Amicus Curiae
State of Washington.

App. 3
OPINION
R. NELSON, Circuit Judge.
This case presents the question whether the State
of Washington may exercise criminal jurisdiction over
members of the Confederated Tribes and Bands of the
Yakama Nation who commit crimes on reservation
land. To answer that question, we must interpret a
2014 Washington State Proclamation that retroceded—that is, gave back—“in part,” civil and criminal
jurisdiction over the Yakama Nation to the United
States, but retained criminal jurisdiction over matters
“involving non-Indian defendants and non-Indian victims.” If “and,” as used in that sentence, is conjunctive,
then the State retained jurisdiction only over criminal
cases in which no party—suspects or victims—is an Indian. If, by contrast, “and” is disjunctive and should be
read as “or,” then the State retained jurisdiction if any
party is a non-Indian. We conclude, based on the entire
context of the Proclamation, that “and” is disjunctive
and must be read as “or.” We therefore affirm the district court.
I
A
This case concerns who—among Indians, Washington, and the United States—can exercise criminal
jurisdiction over matters involving Indians on reservation land. Historically, the states have possessed criminal jurisdiction over crimes involving only nonIndians on Indian reservations. Solem v. Bartlett, 465

App. 4
U.S. 463, 465 n.2 (1984) (recognizing state jurisdiction
over “crimes by non-Indians against non-Indians . . .
and victimless crimes by non-Indians”) (internal citation omitted); United States v. McBratney, 104 U.S. 621,
624 (1881) (recognizing state jurisdiction over crimes
committed by non-Indians against non-Indians); see
also Oliphant v. Suquamish Indian Tribe, 435 U.S. 191,
212 (1978) (“Indian tribes do not have inherent jurisdiction to try and to punish non-Indians.”). But criminal jurisdiction over Indians on Indian reservations
has not been as constant. For much of early United
States history, criminal jurisdiction over Indians on
reservation land was generally concurrent between the
United States and independent tribes, subject to some
exceptions. See Washington v. Confederated Bands &
Tribes of the Yakima Indian Nation, 439 U.S. 463, 470–
71 (1979).
That arrangement changed in 1953, when Congress passed Public Law 280, in part to deal with what
it perceived to be the “problem of lawlessness on certain Indian reservations, and the absence of adequate
tribal institutions for law enforcement.” Bryan v. Itasca
Cty., 426 U.S. 373, 379 (1976). Public Law 280 gave
states the “consent of the United States” to voluntarily
assume full jurisdiction over crimes and civil causes of
action occurring on an Indian reservation, by state legislative act, “at such time and in such manner” as the
state decided. Pub. L. 83-280, 67 Stat. 588, 590 (1953).
A state could therefore decline to assume jurisdiction
or assume only limited jurisdiction at its option. Yakima Indian Nation, 439 U.S. at 499.

App. 5
Washington assumed some of this Public Law 280
jurisdiction in 1963. Wash. Rev. Code § 37.12.010. The
State’s assumption of jurisdiction depended on the
place of the offense and the persons involved. Id. For
offenses committed by Indians on trust land within a
tribe’s reservation, the State assumed jurisdiction as
to eight subject matter areas: compulsory school attendance, public assistance, domestic relations, mental
illness, juvenile delinquency, adoption proceedings, dependent children, and operation of motor vehicles. Id.1
But as to reservation lands held in fee, the State assumed criminal and civil jurisdiction for offenses committed by or against Indians, see Yakima Indian
Nation, 439 U.S. at 475–76,2 which represented an addition to the jurisdiction the State already had over
crimes involving only non-Indians on reservation land,
Oliphant, 435 U.S. at 212. Based on this legislation, the
State had the same jurisdiction on fee lands within Indian reservations as it had anywhere else within
Washington’s borders. Wash. Rev. Code § 37.12.030.

1

The Yakama Nation reassumed jurisdiction over two of
these eight areas—adoption proceedings and dependent children—under the Indian Child Welfare Act, Pub. L. 95-608, 92
Stat. 3069 (1978), in 1980. Those areas are not relevant to this
appeal.
2
Reservation land may include both land held in trust, as
well as land held in fee. Trust lands are those lands that the
United States “holds in trust for an Indian tribe.” Penobscot Indian Nation v. Key Bank of Maine, 112 F.3d 538, 546 (1st Cir.
1997). Fee lands, by contrast, are lands owned by parties other
than the United States. Id.

App. 6
Five years later, Congress authorized any state to
voluntarily give up “all or any measure of the criminal
or civil jurisdiction, or both,” that it had acquired pursuant to Public Law 280—a process called “retrocession.” 25 U.S.C. § 1323(a). The President delegated the
authority to accept such a retrocession to the Secretary
of the Interior, in consultation with the Attorney General. See Designating the Secretary of the Interior to
Accept on Behalf of the United States Retrocession by
Any State of Certain Criminal and Civil Jurisdiction
Over Indian Country, 33 Fed. Reg. 17339-01 (Nov. 23,
1968).
Washington did not elect to retrocede any jurisdiction to the United States for several decades. But in
2012, Washington codified a process for retrocession,
which is defined as “the state’s act of returning to
the federal government” the jurisdiction obtained
“under federal Public Law 280.” Wash. Rev. Code
§§ 37.12.160(9)(a)–(b). Through this process, a tribe
can request, via a petition, that Washington retrocede
its Public Law 280 jurisdiction to the United States. Id.
§ 37.12.160(2). The State may then “approv[e] the request either in whole or in part.” Id. § 37.12.160(4). If
the request is approved, the Governor must issue a
proclamation. Id. The proclamation becomes effective
only once it is approved by the Secretary of the Interior,
in consultation with the Attorney General. Id.
§ 37.12.160(6); 33 Fed. Reg. at 17339.
The Yakama Nation availed itself of this process
by filing a retrocession petition in July 2012. In its petition, the Yakama Nation requested, “pursuant to

App. 7
RCW 37.12,” full “retrocession of both civil and criminal jurisdiction on all Yakama Nation Indian country”—that is, the full jurisdiction Washington had
assumed on fee lands. The Yakama Nation also requested that full jurisdiction be retroceded on all but
one of the remaining categories covering lands held in
trust—“mental illness.”
In early 2014, Governor Jay Inslee issued a threepage Proclamation regarding the Yakama Nation’s petition. The Proclamation recognized that the Yakama
Nation was requesting full retrocession of civil and
criminal jurisdiction obtained “under federal Public
Law 280,” other than over issues relating to “mental
illness” or “civil commitment of sexually violent predators”3 “both within and without the external boundaries of the Yakama Reservation.” But the Proclamation
only granted the Yakama Nation’s request “in part.”
“Outside the exterior boundaries of the Yakama Reservation,” Washington did not retrocede any jurisdiction.
Within “the exterior boundaries,” the Proclamation
“grant[ed] in part” the following:
1. Within the exterior boundaries of the
Yakama Reservation, the State shall retrocede full civil and criminal jurisdiction in the
following subject areas of RCW 37.12.010:
Compulsory School Attendance; Public

3

The State cannot, under its own retrocession procedures,
retrocede jurisdiction “over the civil commitment of sexual violent
predators.” Wash. Rev. Code § 37.12.170(1).

App. 8
Assistance; Domestic Relations; and Juvenile
Delinquency.
2. Within the exterior boundaries of the
Yakama Reservation, the State shall retrocede, in part, civil and criminal jurisdiction in
Operation of Motor Vehicles on Public Streets,
Alleys, Roads, and Highways cases in the following manner: Pursuant to RCW 37.12.010(8),
the State shall retain jurisdiction over civil
causes of action involving non-Indian plaintiffs, non-Indian defendants, and non-Indian
victims; the State shall retain jurisdiction
over criminal offenses involving non-Indian
defendants and non-Indian victims.
3. Within the exterior boundaries of the
Yakama Reservation, the State shall retrocede, in part, criminal jurisdiction over all offenses not addressed by Paragraphs 1 and 2.
The State retains jurisdiction over criminal
offenses involving non-Indian defendants and
non-Indian victims.
(Emphasis added).4
The State then sent the Proclamation to the Department of Interior (“DOI”) with an accompanying
cover letter from Governor Inslee. In the cover letter,
the Governor asked DOI to accept the retrocession. But
the Governor’s letter also went a step further by attempting to clarify language in the Proclamation.
4

The Proclamation does not mention the status of the land—
that is, whether it was held in fee or in trust; instead, it focuses
on the “exterior boundaries of the Yakama Reservation.”

App. 9
According to the Governor’s letter, the usage of “and”
in Paragraphs 2 and 3 to describe the parties over
which the State retained jurisdiction—like, for example, the phrase “non-Indian defendants and non-Indian
victims” in Paragraph 3—was intended to mean
“and/or,” not just “and.” The letter asked DOI to make
this intent “clear in the notice accepting the retrocession Proclamation.”
DOI accepted the State’s retrocession per the Governor’s request. See Acceptance of Retrocession of Jurisdiction for the Yakama Nation, 80 Fed. Reg. 6358301 (Oct. 20, 2015). But DOI’s published acceptance
simply acknowledged that the United States was accepting “partial civil and criminal jurisdiction over the
Yakama Nation which was acquired by the State of
Washington under [Public Law 280],” without addressing the Governor’s proposal. Id. A letter sent to the
Yakama Nation the same day as the acceptance did address the Governor’s proposal, however. Rather than
opine on which interpretation was correct, DOI stated
that the Proclamation was “plain on its face and unambiguous” and that if a disagreement developed “as to
the scope of the retrocession,” a court could “provide a
definitive interpretation of the plain language of the
Proclamation.” The retrocession became effective several months later, on April 19, 2016. 80 Fed. Reg. at
63583.
Since this time, various interpretations of the
Proclamation have been offered. The day before retrocession became effective, the United States Attorney
for the Eastern District of Washington sent an email to

App. 10
various state and federal officials taking the position
that the State retained jurisdiction only over criminal
actions in which no party is an Indian. Then, in November 2016, DOI’s Principal Deputy Assistant Secretary for Indian Affairs took the same position, without
any substantive analysis, in a memorandum titled
“Guidance to State, Local, and Tribal Law Enforcement Agencies on Yakama Retrocession Implementation.”
Almost two years later, in March 2018, the Washington Court of Appeals interpreted the text of the
Proclamation and reached the opposite conclusion—
that when the Proclamation is considered as a whole,
the use of “and” in Paragraph 3 means “or.” State v.
Zack, 413 P.3d 65, 69–70 (Wash. Ct. App. 2018), review
denied, 425 P.3d 517 (2018). Then, a few months after
the Zack decision, the United States Department of
Justice’s Office of Legal Counsel (“OLC”) sent a 17page memorandum to DOI analyzing the historical
background of retrocession and concluding, based on
the text and context of the Proclamation as well as extrinsic evidence, that “and,” when considered with the
“in part” language in Paragraphs 2 and 3, must mean
“or.” DOI eventually rescinded the 2016 DOI guidance
and replaced it with the OLC memorandum.
B
Before long, the dispute concerning the scope of
retrocession as set forth in the Proclamation came to a
head. In September 2018, police officers for the City of

App. 11
Toppenish—which is located within the exterior
boundaries of the Yakama Indian Reservation and
within Yakima County, Washington—were investigating a stolen “bait car” owned by the County. They
tracked the car to an address located both within the
City and the Reservation, requested assistance, and
Yakama Nation police officers responded to the scene.
Upon arrival, only the passenger of the car was
there, and she identified herself as a member of the
Yakama Nation. Despite objections from the Yakama
Nation officers that the Toppenish officers had no jurisdiction because the passenger was a member of the
Yakama Nation, the Toppenish officers arrested the
passenger and questioned her at the Toppenish police
station. The Toppenish officers also searched the
nearby home, which was owned by a member of the
Yakama Nation. They then obtained a search warrant
to do a further search of the home, over objections from
the Yakama Nation police officers that there was no
probable cause to do so.
The next month, the Yakama Nation filed suit
against the City of Toppenish and Yakima County (the
“Defendants”). In its complaint, the Yakama Nation
challenged the State’s jurisdiction, pursuant to the retrocession, over criminal matters involving Indians.
Specifically, the Yakama Nation sought a declaration
that “Defendants do not have criminal jurisdiction over
alleged crimes occurring within the Yakama Reservation when either the defendant or the victim are an Indian.” The Yakama Nation also sought “a preliminary
and permanent injunction” “enjoining Defendants

App. 12
from exercising criminal jurisdiction over alleged
crimes occurring within the Yakama Reservation
whenever either the defendant or victim are Indian.”
Two months later, the Yakama Nation filed a motion for a preliminary injunction, which was converted
to a motion for a permanent injunction with the parties’ consent. The district court held that the Yakama
Nation had Article III standing. The court held, however, that the Yakama Nation had not shown “actual
success on the merits” because the Proclamation’s retrocession of criminal jurisdiction “in part” would not
make sense if the State had “retroceded all criminal
jurisdiction assumed under Public Law 280,” as the
Yakama Nation argued. The district court therefore denied the permanent injunction and entered judgment,
and this appeal followed.
II
We first address Article III standing, which we review de novo. Arakaki v. Lingle, 477 F.3d 1048, 1056
(9th Cir. 2007). To establish standing, a plaintiff must
demonstrate “(1) a concrete and particularized injury
that is ‘actual or imminent, not conjectural or hypothetical’; (2) a causal connection between the injury
and the defendant’s challenged conduct; and (3) a likelihood that a favorable decision will redress that injury.” Pyramid Lake Paiute Tribe of Indians v. Nev.
Dep’t of Wildlife, 724 F.3d 1181, 1187 (9th Cir. 2013)
(quoting Lujan v. Defenders of Wildlife, 504 U.S. 555,
560–61 (1992)). At the pleading stage, we “must accept

App. 13
as true all material allegations of the complaint, and
must construe the complaint in favor of the complaining party,” Warth v. Seldin, 422 U.S. 490, 501 (1975), to
determine whether the nonmoving party has “clearly
allege[d] facts demonstrating” each element of standing, Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016)
(internal quotations marks and alterations omitted).
The Yakama Nation has met this standard here.
The injury it asserts—infringement on its tribal sovereignty and right to self-government as guaranteed by
treaty—is sufficiently concrete, particularized, and imminent to show injury in fact. Moe v. Confederated Salish and Kootenai Tribes of Flathead Reservation, 425
U.S. 463, 468–69 & n.7 (1976) (recognizing a “discrete
claim of injury” to “tribal self-government” sufficient
to “confer standing” in a case involving Montana’s imposition of taxes on “motor vehicles owned by tribal
members residing on the reservation”); see also
Mashantucket Pequot Tribe v. Town of Ledyard, 722
F.3d 457, 464 (2d Cir. 2013) (finding injury in fact based
on “measurable interference in the Tribe’s sovereignty
on its reservation”). Moreover, the claimed injury is
“fairly traceable” to the Defendants and “likely to be
redressed” by an injunction prohibiting Defendants
from exercising criminal jurisdiction over Indians or
by a definitive interpretation of the Proclamation.
Lexmark Int’l, Inc. v. Static Control Components, Inc.,
572 U.S. 118, 125 (2014). The Yakama Nation therefore
has Article III standing.

App. 14
III
Next, we address the district court’s decision to
deny the Yakama Nation’s request for a permanent injunction. To be entitled to a permanent injunction, a
plaintiff must demonstrate (1) “actual success on the
merits”; (2) “that it has suffered an irreparable injury”;
(3) “that remedies available at law are inadequate”; (4)
“that the balance of hardships justify a remedy in equity”; and (5) “that the public interest would not be disserved by a permanent injunction.” Indep. Training &
Apprenticeship Program v. Cal. Dep’t of Indus. Relations, 730 F.3d 1024, 1032 (9th Cir. 2013). Here, we
need only address the “actual success on the merits”
element—specifically, the scope of retrocession based
on our interpretation of the Proclamation—and we review the district court’s legal conclusions as to that interpretation de novo. Ting v. AT&T, 319 F.3d 1126,
1134–35 (9th Cir. 2003) (holding that “any determination underlying the grant of an injunction” is reviewed
“by the standard that applies to that determination”);
Artichoke Joe’s Cal. Grand Casino v. Norton, 353 F.3d
712, 719 (9th Cir. 2003) (noting that “questions of statutory interpretation” are reviewed de novo).
Our de novo review is informed by well-established
rules of interpretation.5 First, we “determine whether
5

We need not decide whether to apply federal or state law in
interpreting the Proclamation. As discussed below, the Proclamation is susceptible to only one plausible interpretation regardless
of which law applies. Here, we cite principles of federal law because, were we to apply state law, we would be bound to follow
the Washington Court of Appeal’s decision in Zack. Ryman v.
Sears, Roebuck & Co., 505 F.3d 993, 995 (9th Cir. 2007) (“Where

App. 15
the language at issue has a plain and unambiguous
meaning with regard to the particular dispute in the
case.” Robinson v. Shell Oil Co., 519 U.S. 337, 340
(1997). This determination is made “by reference to the
language itself, the specific context in which that language is used, and the broader context” of the statute
or agreement, id. at 341, which can include whether a
proposed interpretation would render certain words
“meaningless,” United States v. Littlefield, 821 F.2d
1365, 1367 (9th Cir. 1987). If, based on these criteria,
we find the language ambiguous, we may “look to other
sources” to determine the meaning of the words in
question. United States v. Nader, 542 F.3d 713, 717 (9th
Cir. 2008).
We begin with the word “and” in the phrase “nonIndian defendants and non-Indian victims” in Paragraphs 2 and 3 of the Proclamation.6 The most common
meaning of the word “and” is as a conjunction expressing the idea that the two concepts are to be taken “together.” Webster’s Third New International Dictionary
80 (2002). Thus, when “and” is used to join two concepts, it is usually interpreted to require “not one or
the other, but both.” Crooks v. Harrelson, 282 U.S. 55,
there is no convincing evidence that the state supreme court
would decide differently, a federal court is obligated to follow the
decisions of the state’s intermediate appellate courts.”) (internal
quotation marks omitted). We reach the same conclusion under
either analysis.
6
Because DOI’s acceptance of retrocession does not clarify or
interpret what the State retroceded, see 80 Fed. Reg. at 63583, we
need not determine how much weight to give an interpretive pronouncement in an acceptance of retrocession.

App. 16
58 (1930); see also 1A Norman J. Singer, Statutes and
Statutory Construction § 21.14 at 177–79 (7th ed.
2009) (“Statutory phrases separated by the word ‘and’
are usually interpreted in the conjunctive.”) (emphasis
added).
But just because the ordinary meaning of “and” is
typically conjunctive does not mean “and” cannot take
on other meanings in context. See Encino Motorcars,
LLC v. Navarro, 138 S. Ct. 1134, 1141 (2018) (“context
can overcome the ordinary, disjunctive meaning of
‘or’ ”). Indeed, “and” can also mean “or” in some circumstances. Webster’s Third New International Dictionary
80 (2002) (alternative six of the second definition of
“and”: “reference to either or both of two alternatives
. . . esp[ecially] in legal language when also plainly intended to mean or”). That is why “courts are often compelled to construe ‘or’ as meaning ‘and,’ and again ‘and’
as meaning ‘or.’ ” United States v. Fisk, 70 U.S. 445, 447
(1865); see also Bryan A. Garner, A Dictionary of Modern Legal Usage 56 (3d ed. 2011) (noting that courts
sometimes “recognize that and in a given context
means or. . . .”); Black’s Law Dictionary 86 (6th ed.
1990) (noting that “and” is “[s]ometimes construed as
‘or’ ”). In fact, it is something we have already done. See
Cal. Lumbermen’s Council v. FTC, 115 F.2d 178, 184–
85 (9th Cir. 1940). In California Lumbermen’s Council,
we interpreted an order prohibiting a party from engaging in activities “in connection with the purchase
and the offering for sale” of lumber as forbidding the
acts “separately or together” because that meaning

App. 17
was clear “when the order [was] read as a complete article.” Id. at 185.
Examples of “and” used to mean “or” abound. For
example, a child who says she enjoys playing with “cats
and dogs” typically means that she enjoys playing with
“cats or dogs”—not that cats and dogs must both be
present for her to find any enjoyment. Similarly, a
statement that “the Ninth Circuit hears criminal and
civil appeals,” does not suggest that an appeal must
have a criminal and civil component for it to be
properly before us. Nor would a guest who tells a host
that he prefers “beer and wine” expect to receive “a
glass of beer mixed with wine.” OfficeMax, Inc. v.
United States, 428 F.3d 583, 600 (6th Cir. 2005) (Rogers, J., dissenting). In each instance, the common understanding is that “and,” as used in the sentence,
should be construed as the disjunctive “or.”
The same is true here when we examine “the
broader context” of the Proclamation, Robinson, 519
U.S. at 341, in particular the Proclamation’s use of the
term “in part” in Paragraphs 2 and 3. In both Paragraphs 2 and 3, the State “retrocede[s]” criminal jurisdiction “in part,” but retains “criminal jurisdiction”
over “offenses involving non-Indian defendants and
non-Indian victims.” If “and” in those sentences is interpreted to mean “or,” the retrocession “in part” makes
sense. Under that interpretation, the State has given
back a portion of its Public Law 280 jurisdiction—jurisdiction over crimes involving only Indians—but has
kept Public Law 280 criminal jurisdiction if a non-Indian is involved.

App. 18
Interpreting “and” in those Paragraphs as conjunctive, however, does not give “in part” meaning. Under that interpretation, the State has retroceded all
jurisdiction that it received under Public Law 280—
that is, criminal jurisdiction over all cases involving
Indians. If that is the case, Paragraphs 2 and 3 are no
different than Paragraph 1, which retroceded “full civil
and criminal jurisdiction” over certain subject matters.
But that cannot be right, because Paragraph 1 uses the
phrase “full,” whereas Paragraphs 2 and 3 use the
phrase “in part.”
At bottom, the Yakama Nation’s proposed interpretation changes the Proclamation’s use of “in part”
in Paragraphs 2 and 3 to “in full,” thereby rendering
“in part” meaningless. We must give “some significance” to “in part.” See In re Emerald Outdoor Advert.,
LLC, 444 F.3d 1077, 1082 (9th Cir. 2006) (requiring
courts to interpret language “in a manner that gives
meaning to every word”) (internal quotation marks
omitted). And the only way to do so is to interpret “and”
as disjunctive. We therefore conclude that the only
plausible interpretation of Paragraphs 2 and 3 is to
read them as stating “criminal offenses involving nonIndian defendants [or] non-Indian victims.”
The Yakama Nation argues that the “in part” language is not meaningless under its interpretation because “in part” was nothing more than an indication
that the State was preserving its “pre-Public Law 280
criminal jurisdiction over non-Indian versus nonIndian crimes.” Aside from the problems with this interpretation discussed above, the Yakama Nation’s

App. 19
explanation does not make sense in the context of its
request. Specifically, the Proclamation states that
“[t]he retrocession petition by the Yakama Nation requests full retrocession of civil and criminal jurisdiction” obtained “in 1963” and full civil and criminal
jurisdiction over the five areas listed in Washington
Revised Code § 37.12.010, including “Operation of Motor Vehicles on Public Streets, Alleys, Road, and Highways.” Given that the Yakama Nation’s request was
made in the context of Public Law 280—not all state
jurisdiction over crimes committed on reservation
land—it would make no sense for the Proclamation to
retrocede “in part” if it was actually doing so “in full.”
The Nation’s proposed interpretation therefore not
only renders “in part” meaningless but also ignores the
context of its own request for retrocession as set forth
in the Proclamation.
Moreover, the Yakama Nation’s argument that
“retrocede, in part” merely indicates that the State was
retaining pre-Public Law 280 jurisdiction ignores what
“retrocede” means under Washington law and in the
Proclamation. The statement “retrocede, in part” assumes that the “part” that is not being retroceded can
be retroceded, but will not be. That logical conclusion
works well if “and” is interpreted as disjunctive because the “part” the State retained is in fact jurisdiction it had authority to retrocede.
But if, as the Yakama Nation argues, the “part” retained was merely pre-Public Law 280 jurisdiction, the
use of the word “retrocede” in the phrase “retrocede, in
part” takes on a meaning unsupported by both

App. 20
Washington law and the Proclamation. Washington
law defines “criminal retrocession” as “the state’s act of
returning to the federal government the criminal jurisdiction acquired over Indians and Indian country under federal Public Law 280.” Wash. Rev. Code
§ 37.12.160(9)(b) (emphasis added). And the Proclamation was issued pursuant to that authority, to “retrocede” “civil and criminal jurisdiction previously
acquired by the State . . . under Federal Public Law
280.” As a result, the Yakama Nation’s interpretation
would also require us to conclude that the State incorrectly believed it could retrocede pre-Public Law 280
jurisdiction but elected to retain only that “part.”
In sum, only one interpretation of the Proclamation is plausible because only one interpretation gives
meaning to every word. We therefore conclude, based
on the Proclamation as a whole, and to give the phrase
“in part” meaning, that the word “and” in the phrase
“non-Indian defendants and non-Indian victims” in
Paragraphs 2 and 3 should be interpreted as the disjunctive “or.” Interpreted as such, the State retained
criminal jurisdiction in Paragraphs 2 and 3 over cases
in which any party is a non-Indian.
Because there is only one plausible interpretation
of the Proclamation, we need not apply the canon of
construction that ambiguities be resolved “for the benefit of an Indian tribe.” Artichoke Joe’s, 353 F.3d at 729.
Nor need we look to “other sources” to interpret the

App. 21
Proclamation.7 Nader, 542 F.3d at 717. But even if we
did, those sources would support our conclusion.
The contemporaneous evidence strongly favors
our interpretation. Governor Inslee’s cover letter stating his intention to retain jurisdiction where any party
is a non-Indian is consistent with the Proclamation’s
unambiguous language. Moreover, the Yakama Nation’s retrocession petition requested full retrocession
“over members of the Yakama Nation pursuant to
RCW 37.12.” The Yakama Nation was therefore requesting only retrocession of Public Law 280 jurisdiction. Interpreting the Proclamation’s partial grant of
retrocession as merely preserving pre-Public Law 280
jurisdiction does not make sense in light of the retrocession petition.
Nor is there any contemporaneous evidence as of
the time retrocession was accepted that would change
this conclusion. The letter sent to the Yakama Nation
upon acceptance of retrocession takes no position as to
the proper interpretation of the Proclamation. Instead,
it states that DOI will not provide an interpretation of
the scope of retrocession and that, if a dispute arises,
“courts will provide a definitive interpretation of the
plain language of the Proclamation.” And the formal
notice of acceptance of retrocession is similarly neutral, indicating only that the United States accepted
7

We grant the Yakama Nation’s two motions to take judicial
notice. But given our conclusion that there is only one plausible
interpretation of the Proclamation, we need not consider any of
the attached documents. Nor would any of the documents change
our conclusion that the available extrinsic evidence generally supports our interpretation of the Proclamation.

App. 22
“partial civil and criminal jurisdiction over the
Yakama Nation.” 80 Fed. Reg. at 63583.
Moreover, interpretations of the Proclamation
since it was accepted further support our interpretation. The Yakama Nation points to a now-rescinded
2016 DOI memo stating that the State retained “jurisdiction only over civil and criminal causes of action in
which no party is an Indian” and an email from the
United States Attorney for the Eastern District of
Washington. But neither document provides independent reasoning to support its conclusion. By contrast, in
Zack, the Washington Court of Appeals concluded, in a
well-reasoned opinion, that “and” was properly read as
disjunctive when read in the context of the whole Proclamation. 413 P.3d at 69–70. Similarly, in an opinion
that overrode all prior federal analysis and interpretation of the Proclamation, the OLC memorandum analyzed the entire Proclamation and the history
surrounding retrocession, and concluded that, read in
the proper context, “and” means “and/or.”
IV
In sum, we hold that, under the Proclamation, the
State retained criminal jurisdiction over cases in
which any party is a non-Indian. Based on this holding,
we find that the Yakama Nation has not shown “actual
success on the merits” so as to justify a permanent injunction. We therefore affirm the district court.
AFFIRMED.

App. 23
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WASHINGTON
THE CONFEDERATED
TRIBES AND BANDS OF
THE YAKAMA NATION,
a sovereign federally
recognized Native Nation,
Plaintiff,

NO. 1:18-CV-3190-TOR
ORDER DENYING
PRELIMINARY AND
PERMANENT INJUNCTION
(Filed Feb. 22, 2019)

v.
CITY OF TOPPENISH,
a municipality of the State
of Washington; YAKIMA
COUNTY, a political
subdivision of the
State of Washington,
Defendants.

BEFORE THE COURT is Plaintiff ’s Motion for
Preliminary Injunction. ECF No. 16. This matter was
heard with oral argument on February 15, 2019. The
Court has reviewed the record and files therein, and is
fully informed. For the reasons discussed below, Plaintiff ’s Motion for Preliminary Injunction is DENIED.
BACKGROUND
On October 3, 2018, Plaintiff the Confederated
Tribes and Bands of the Yakama Nation filed a Complaint against Defendants City of Toppenish and Yakima
County. ECF No. 1. Plaintiff alleges a violation of the

App. 24
Treaty of 1855 arising from “Defendants’ ultra vires
exercise of criminal jurisdiction over enrolled Yakama
members for alleged crimes occurring within the exterior boundaries of the Yakama Reservation.” Id. at 2,
¶ 1.1. Because “Defendants’ actions violated, and continue to violate, the rights reserved by the Yakama Nation in the Treaty of 1855,” Plaintiff seeks declaratory
and injunctive relief. Id. at 4, ¶¶ 1.8-1.9.
On December 12, 2018, Plaintiff filed the instant
motion for a preliminary injunction. ECF No. 16. Defendants jointly filed a response to Plaintiff ’s motion
on December 26, 2018. ECF No. 20.
FACTS
The following facts are drawn from Plaintiff ’s
Complaint and are essentially undisputed as relevant
and material to resolution of the instant motion. As
identified in the Complaint, there are two categories of
facts in this case—facts that are largely historic and
facts relating to the arrest of Leanne Gunn, a Yakama
member, by City of Toppenish Police Officers. The facts
relating to the arrest are fairly straightforward. On
September 26, 2018, Toppenish Police Officers were
alerted that a “bait car,” deployed by the Toppenish
Police Department to combat auto theft, had been
moved from its original location and was being driven
within the City of Toppenish. ECF No. 1 at 6, ¶ 5.1.
Toppenish Police tracked the bait car to 111 Branch
Road, Toppenish, Washington, and requested law enforcement assistance at that location. Id. at ¶ 5.2.

App. 25
Yakama Nation Police officers responded to assist with
the alleged vehicle theft. Id. at ¶ 5.5.
Once at the property, Toppenish Police detained
the passenger in the bait car, Ms. Gunn, who identified
herself as a Yakama member. Id. at ¶¶ 5.3-5.4. According to Plaintiff, Toppenish Police expressed their intent
to charge Ms. Gunn under state law despite the protest
of Yakama Nation Police Officers who took exception to
Toppenish Police’s claim of jurisdiction over a Yakama
member. Id. at ¶ 5.5. Toppenish Police allegedly responded that they were exercising their jurisdiction
over Ms. Gunn consistent with the decision of Division
Three of the Washington Court of Appeals in State v.
Zack, 2 Wash. App. 2d 667 (2018), review denied, 191
Wash. 2d 1011 (2018). Id. at ¶ 5.6.
Toppenish Police then contacted the owner of the
real property, Vera Hernandez, who also identified herself as a Yakama member. Id. at ¶ 5.7. Toppenish Police
requested Ms. Hernandez’s consent to search her residence and the garage located on the property to look
for the suspected driver of the stolen vehicle. Id. at
¶ 5.8. Ms. Hernandez consented to the search of both
her residence and the garage. Id. Though the suspected
driver of the stolen vehicle was not found during the
search, another vehicle was found in a nearby field that
had been reported stolen in June of 2018. Id. at ¶ 5.10.
After the search concluded, Toppenish Police Officer Kyle Cameron asked Yakama Nation Police Officers if they would obtain a search warrant for the
premises. Id. at ¶ 5.11. The Yakama Nation Police

App. 26
Officers declined the request, citing insufficient evidence to find probable cause of a crime. Id. at ¶ 5.12.
Officer Cameron responded that Toppenish Police
would obtain a state search warrant for the property.
Id. at ¶¶ 5.13-5.15. Officer Cameron prepared a telephonic affidavit application for the search warrant, obtained a warrant from a Yakima County Superior
Court Judge, and Toppenish Police Officers executed
the search warrant on Ms. Hernandez’ property. Id. at
¶¶ 5.16-5.18.
According to Plaintiff, the facts described above
are significant when viewed in the context of the following historical facts. Under the Treaty of 1855, the
Yakama Nation reserved all rights not expressly
granted to the United States, including its inherent
sovereign rights and jurisdiction over its enrolled
members and its lands both within and beyond the exterior boundaries of the Yakama Reservation. Id. at 5,
¶ 3.1. Jurisdiction over the Yakama Reservation, as
with all Indian Country, rests with federal and Yakama
authorities “except where Congress in the exercise of
its plenary and exclusive power over Indian affairs has
expressly provided that State laws shall apply.” Id. at
9, ¶ 5.21; Washington v. Confed. Bands and Tribes of
the Yakima Indian Nation, 439 U.S. 463, 470-71 (1979).
In 1953, concerned with “the absence of adequate
tribal institutions for law enforcement” on “certain
Indian reservations,” Congress enacted Public Law
280 (Pub. L. No. 83-280, 67 Stat. 588 (1953)), which required some states and authorized others to assume
criminal and civil jurisdiction in Indian Country

App. 27
within a state’s borders. Id. at 10, ¶ 5.23 (quoting
Bryan v. Itasca Cty., Minn., 426 U.S. 373, 379 (1976));
see Pub. L. 83-280, 67 Stat. 588, 588-89 (1953). In 1957,
Washington enacted a law establishing state jurisdiction over any Indian reservation for any tribe that requested the State’s assumption of jurisdiction. ECF
No. 1 at 10, ¶ 5.26; Confed. Bands, 439 U.S. at 474.
In 1963, Washington passed legislation allowing
the State to assume civil and criminal jurisdiction pursuant to Public Law 280 over “Indians and Indian territory, reservations, country, and lands within this
state,” with certain limited exceptions. ECF No. 1 at 11,
¶ 5.27; see RCW 37.12.010. Specifically, Washington
did not assume jurisdiction over lands held in trust by
the United States or held by a tribe in restricted fee
status, unless the tribe consented, except in the following eight areas: (1) compulsory school attendance;
(2) public assistance; (3) domestic relations; (4) mental
illness; (5) juvenile delinquency; (6) adoption proceedings; (7) dependent children; and (8) operations of motor vehicles on public roads. ECF No. 1 at ¶¶ 5.27-5.28;
see RCW 37.12.010. The Yakama Nation did not consent to State jurisdiction over its trust or restricted fee
lands. ECF No. 1 at ¶ 5.29.
In 1968, Congress amended Public Law 280 and
repealed the option for states to assume jurisdiction
over Indian Country without tribal consent, making
tribal consent a prerequisite for any state assuming
jurisdiction over Indian Country. Id. at 12, ¶ 5.34;
25 U.S.C. § 1322(a). For Washington and other states
that had already assumed jurisdiction, Congress

App. 28
authorized the United States to “accept a retrocession
by any State of all or any measure of the criminal or
civil jurisdiction, or both, acquired by such State pursuant to the provisions of [Public Law 280] as it was
in effect prior to [the 1968 amendments].” ECF No. 1
at ¶ 5.35; 25 U.S.C. § 1323(a). The President delegated
the authority to accept retrocessions to the Secretary
of the Interior, in consultation with the Attorney General. ECF No. 1 at 13, ¶ 5.36; see Exec. Order No. 11435
(Nov. 21, 1968), 33 Fed. Reg. 17339-01 (Nov. 23, 1968).
In 2012, the Washington State Legislature
adopted a law codifying the process by which the State
could retrocede its Public Law 280 jurisdiction to the
United States. See RCW 37.12.160. The Yakama Nation filed a petition with the Office of the Governor on
July 17, 2012, asking the State to retrocede its civil and
criminal jurisdiction over “all Yakama Nation Indian
Country” and in five areas listed in RCW 37.12.010.
ECF Nos. 1 at 13, ¶ 5.38; 16-1 at 21, 25.
On January 17, 2014, Governor Jay Inslee issued
a proclamation partially retroceding civil and criminal
jurisdiction previously acquired under Public Law 280
over Indians within the Yakama Reservation. ECF
Nos. 1 at 14, ¶ 5.40; 16-1 at 25-27. Particularly relevant
here, paragraph 3 of the Governor’s retrocession proclamation specified that the State would “retrocede,
in part, criminal jurisdiction over certain criminal
offenses,” and “retain[ ] jurisdiction over criminal offenses involving non-Indian defendants and nonIndian victims.” ECF No. 6-1 at 26 (emphasis added).
In a letter transmitting the proclamation to the

App. 29
Department of the Interior (“DOI”) on January 27,
2014, Governor Inslee explained that the State’s retrocession of criminal jurisdiction was intended to retain
jurisdiction whenever “non-Indian defendants and/or
non-Indian victims” were involved. ECF Nos. 1 at 14,
¶ 5.41; 16-1 at 30.
On October 19, 2015, DOI notified the Yakama Nation of the United States’ acceptance of “partial civil
and criminal jurisdiction over the Yakama Nation.”
ECF Nos. 1 at 14, ¶ 5.42; 16-1 at 32. Regarding the “extent of retrocession,” DOI stated that Governor Inslee’s
proclamation was “plain on its face and unambiguous.”
ECF Nos. 1 at 16, ¶ 5.47; 16-1 at 36. Noting its concern
that “unnecessary interpretation might simply cause
confusion,” DOI explained that “[i]f a disagreement develops as to the scope of the retrocession, we are confident that courts will provide a definitive interpretation
of this plain language of the Proclamation.” ECF Nos.
1 at 16, ¶ 5.48; 16-1 at 36. Pursuant to the DOI’s instructions, the United States formally implemented
retrocession on April 19, 2016, following significant coordination between the Yakama Nation, the United
States, the State of Washington, and local jurisdictions.
ECF No. 1 at 18, ¶ 5.53.
On March 8, 2018, Division Three of the Washington State Court of Appeals issued its decision in State
v. Zack, 2 Wash. App. 667 (2018). The Zack court held
that, while the State of Washington had partially retroceded jurisdiction to the Yakama Nation, the State
retained criminal jurisdiction over crimes occurring
on deeded land within the Yakama Reservation that

App. 30
involve a non-Indian, whether as a victim or defendant. ECF No. 1 at 19, ¶ 5.57; 2 Wash. App. at 676. On
July 27, 2018, the Office of Legal Counsel for the
United States Department of Justice (“OLC”) issued a
memorandum opinion addressing the scope of Washington’s retrocession of criminal jurisdiction on the
Yakama Reservation, in which OLC concluded that
“Washington has retained jurisdiction over criminal offenses where any party is a non-Indian, as the Washington Court of Appeals recently held in State v. Zack.”
ECF Nos. 1 at 19, ¶ 5.58; 16-1 at 51-52.
Plaintiff asserts that, following the United States’
acceptance of partial retrocession of jurisdiction within
the Yakama Reservation, only the United States, not
the State of Washington, “has criminal jurisdiction
over non-Indian versus Indian crimes exclusive of Defendants.” ECF No. 1 at 20, ¶ 6.3. In other words, Plaintiff maintains that the State retroceded full criminal
jurisdiction over all criminal offenses involving Indians as a defendant and/or victim. See ECF No. 16 at 2.
Plaintiff alleges that, despite retrocession, Defendants
have exercised ultra vires criminal jurisdiction over
Yakama members within the Yakama Reservation, as
evidenced by the September 26, 2018, arrest of Ms.
Gunn and subsequent search of Ms. Hernandez’ property. ECF No. 1 at 20-21, ¶ 6.4.
In the pending motion, Plaintiff requests a preliminary injunction “enjoining Defendants, and all persons acting on Defendants’ behalf, from exercising
criminal jurisdiction arising from actions within the
exterior boundaries of the Yakama Reservation

App. 31
involving an Indian as a defendant and/or victim.” ECF
No. 16 at 2.
DISCUSSION
I.

Standing

The Court first considers Defendants’ argument
that Plaintiff lacks Article III standing to challenge
the alleged infringement of sovereignty at issue in this
case. ECF No. 20 at 7-13. In order for a federal court
to have subject-matter jurisdiction over a claim, the
plaintiff must have standing under Article III of the
Constitution to challenge an alleged wrong in federal
court. Warth v. Seldin, 422 U.S. 490, 498 (1975). The
Supreme Court has created a three-part test to determine whether a party has standing to sue: (1) the
plaintiff must have suffered an “injury in fact,” meaning that the injury is a legally protected interest which
is (a) concrete and particularized and (b) actual or imminent; (2) there must be a casual connection between
the injury and the conduct brought before the court;
and (3) it must be likely, rather than speculative, that
a favorable decision by the court will redress the injury.
Lujan v. Defenders of Wildlife, 504 U.S. 555, 560-61
(1992). At the pleading-stage, “the party invoking federal jurisdiction bears the burden of establishing these
elements.” Id. at 561. Though the Court treats pleading-stage factual allegations as true, plaintiff must allege facts that give rise to a plausible inference that
plaintiff is entitled to relief. See Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570-72 (2007).

App. 32
Here, Defendants’ primarily dispute whether
Plaintiff has established the existence of a concrete,
particularized injury in this case. Defendants argue
that Plaintiff fails to identify a “likelihood of substantial and immediate irreparable injury,” and therefore
lack standing to bring this claim. Plaintiff responds
that it has suffered an injury-in-fact because Defendants’ exercise of criminal jurisdiction within the
Yakama Reservation infringes upon Tribal sovereignty. ECF No. 22 at 8-9. The Court agrees that Plaintiff ’s allegations are sufficient to confer standing.
Plaintiff alleges that Defendants’ assertion of
criminal jurisdiction over crimes within the Yakama
Nation involving Indians, following the United States’
acceptance of Washington’s retrocession, constitutes a
violation of the Yakama Nation’s sovereignty. Id. at 9.
Thus, “[t]he injury that the Yakama Nation has sustained, and will continue to sustain without injunction,
is a violation of its sovereign legally protected rights.”
Id. Defendants do not dispute that they asserted criminal jurisdiction over Yakama members on the Yakama
Reservation following retrocession, nor do they deny
that they will continue to exercise such jurisdiction in
the future. To the contrary, Defendants maintain that
they should not be prevented, by Plaintiff or this Court,
from “enforcing state criminal laws within their own
jurisdictions in contravention of state law.” ECF No. 20
at 13.
The Court finds that actual infringements on a
tribe’s sovereignty, as alleged by Plaintiff in this case,
establishes “an invasion of a legally protected interest

App. 33
which is (a) concrete and particularized, and (b) actual
or imminent, not conjectural or hypothetical.” Lujan,
504 U.S. at 560. A tribe has a legal interest in protecting tribal self-government from a state’s allegedly unjustified assertion of criminal jurisdiction over Indians
and Indian Country. Congress, too, has a substantive
interest in protecting tribal self-government. See Moe
v. Confederate Salish and Kootenai Tribes of Flathead
Reservation, 425 U.S. 463, 469 n.7 (1976). Accordingly,
the Defendants’ alleged exercise of criminal jurisdiction over Yakama members on the Yakama Reservation constitutes an affront to sovereignty sufficient to
confer standing. Plaintiff has alleged facts from which
the Court could reasonably infer concrete, particularized, and actual or imminent injury. See Lujan, 504
U.S. at 560.
The Court finds that Plaintiff also satisfies Article III’s remaining requirements—plaintiff ’s injury-infact is “fairly traceable” to the “complained-of-conduct
of the defendant,” Steel Co. v. Citizens for a Better Env’t,
523 U.S. 83, 103 (1998), and a favorable ruling would
likely redress plaintiff ’s injury. Lujan, 504 U.S. at 561.
As noted, Defendants confirm that they exercised
criminal jurisdiction over Yakama members within the
Yakama Reservation on September 26, 2018, and do
not deny their intent to continue exercising criminal
jurisdiction within the Yakama Reservation. And, an
injunction preventing Defendants from exercising
criminal jurisdiction would unquestionably prevent
further alleged violations of the Yakama Nation’s

App. 34
sovereignty. Accordingly, the Court finds that Plaintiff
has satisfied Article III’s standing requirements.
In finding that Plaintiff ’s alleged injury satisfies
Article III’s case-or-controversy requirement, the
Court notes that standing in no way depends on the
merits of Plaintiff ’s contention that Defendants’ conduct is illegal. See, e.g., Flast v. Cohen, 392 U.S. 83, 999
(1968). The validity of Plaintiff ’s claim is not to be conflated with Article III’s injury-in-fact requirement. The
Court considers the merits of Plaintiff ’s claim below.
II.

Injunction

Pursuant to Federal Rule of Civil Procedure 65,
the Court may grant preliminary injunctive relief in
order to prevent “immediate and irreparable injury.”
Fed. R. Civ. P. 65(b)(1)(A). Rule 65 also states that
“[b]efore or after beginning the hearing on a motion for
a preliminary injunction, the court may advance the
trial on the merits and consolidate it with the hearing.”
Fed. R. Civ. P. 65(a)(2).
At oral argument, the Court questioned the parties as to whether there was any reason not to make
this action a final injunction. Defendants confirmed
that the Court had everything necessary to make a final decision on the case, clarifying that they did not
intend to supplement the record further. Plaintiff
agreed with Defendants. The Court finds that there is
no reason not to decide the issue as a final injunction
as it appears that the parties do not have any additional evidence concerning the decision with respect to

App. 35
Plaintiff ’s claims. Accordingly, the Court considers
Plaintiffs’ request for a preliminary injunction as a final injunction.
To obtain a permanent or final injunction, a plaintiff must demonstrate: “(1) actual success on the merits; (2) that it has suffered an irreparable injury;
(3) that remedies available at law are inadequate;
(4) that the balance of hardships justify a remedy in
equity; and (5) that the public interest would not be
disserved by a permanent injunction.” Indep. Training
& Apprenticeship Program v. California Dep’t of Indus.
Relations, 730 F.3d 1024, 1032 (9th Cir. 2013). Plaintiff
must satisfy each element for injunctive relief. “The
standard for a preliminary injunction is essentially the
same as for a permanent injunction with the exception
that the plaintiff must show a likelihood of success on
the merits rather than actual success.” Id. (quoting
Amoco Prod. Co. v. Village of Gambell, 480 U.S. 531, 546
n.12 (1987)). Accordingly, the Court’s analysis remains
largely the same as if it were considering the Plaintiff ’s original motion for preliminary injunction.
A. Actual Success on the Merits
This case concerns the scope of the State of Washington’s retrocession of criminal jurisdiction within
the Yakama Reservation. Plaintiff contends that the
State retroceded criminal jurisdiction “over all crimes
within the Yakama Reservation where an Indian is involved as a defendant and/or victim.” ECF No. 16 at 15
(emphasis added). Accordingly, Plaintiff insists that

App. 36
Defendants are violating the Yakama Nation’s treaty
rights and threatening its sovereignty by exercising
criminal jurisdiction over enrolled Yakama members
within the Yakama Reservation. Id. at 2. Defendants
maintain that, while the State retroceded some criminal jurisdiction to the United States, the State retained jurisdiction over criminal offenses involving
non-Indian defendants and/or non-Indian victims
within the Yakama Reservation. ECF No. 20 at 6-7.
Plaintiff provides four reasons why the United
States reassumed “the full scope of Public Law 280
criminal jurisdiction” from the State of Washington:
(1) in accepting retrocession, DOI interpreted the Governor’s proclamation as retroceding all criminal jurisdiction over offenses whenever a Yakama member is
involved as either a defendant and/or victim; (2) DOI’s
acceptance of retrocession should be afforded judicial
deference; (3) the United States Office of Legal Counsel’s recent memorandum opinion should be afforded
no deference; and (4) Washington’s attempt to claw
back jurisdiction it clearly retroceded is not supported
by applicable law. ECF No. 16 at 11-32.
In the Court’s view, Plaintiff ’s arguments hinge
entirely on the underlying assumption that DOI, in accepting retrocession, definitively identified the scope
of the State’s retrocession as (1) retroceding federal
jurisdiction over all offenses occurring within the
Yakama Reservation whenever an Indian is involved
as a defendant and/or victim and (2) retaining criminal
jurisdiction only over criminal offenses involving both
a non-Indian defendant and non-Indian victim, as well

App. 37
as non-Indian victimless crimes. ECF No. 16 at 17-18
(“Assistant Secretary Washburn’s stated intent in accepting retrocession supports the State no longer retaining concurrent criminal jurisdiction whenever an
Indian is involved as a defendant and/or victim.”). Assuming this is DOI’s interpretation, Plaintiff urges a
“federal-focus perspective on interpreting retrocessions,” arguing that “the Department of the Interior’s
actions are controlling, regardless of any other governments’ and agencies’ contrary interpretation.” Id. at 12.
And, according to Plaintiff, applying the federal-focus
perspective to DOI’s actions in this case unambiguously support Plaintiff ’s interpretation of the scope of
retrocession—i.e., retroceding criminal jurisdiction
over all offenses where a Yakama member is involved.
Id.
Unlike the Plaintiff, the Court is not convinced
that DOI, in accepting retrocession, necessarily understood the Governor’s retrocession proclamation as an
offer to retrocede criminal jurisdiction over all crimes
within the Yakama Reservation whenever an Indian is
involved “as a defendant and/or victim.” Id. at 16-18.
The retrocession proclamation, paragraph 3 provides
in relevant part:
Within the exterior boundaries of the Yakama
Reservation, the State shall retrocede, in part,
criminal jurisdiction over certain criminal offenses not addressed by Paragraphs 1 and 2.
The State retains jurisdiction over criminal
offenses involving non-Indian defendants and
non-Indian victims.

App. 38
ECF No. 16-1 at 25 (emphasis added). Thus, the State
expressly retained jurisdiction over “all criminal offenses
involving non-Indian defendants and non-Indian victims.” ECF No. 6-1 at 26 (emphasis added). As noted,
in the letter transmitting the proclamation to DOI
on January 27, 2014, Governor Inslee clarified that
the State’s intent in retroceding criminal jurisdiction
was to retain jurisdiction whenever “non-Indian defendants and/or non-Indian victims” were involved.
ECF Nos. 1 at 14, ¶ 5.41; 16-1 at 30.
In DOI’s October 19, 2016, letter notifying the
Yakama Nation of retrocession, DOI confirmed that it
had accepted the Governor’s offer of retrocession and
briefly addressed the “extent of retrocession” issue.
ECF No. 16-1 at 36. After confirming that “Washington
law clearly sets forth the process for retrocession of
civil or criminal jurisdiction in Washington State,” DOI
summarily concluded that the Governor’s proclamation was “plain on its face and unambiguous.” ECF No.
16-1 at 36. However, DOI then continued:
We worry that unnecessary interpretation
might simply cause confusion. If a disagreement develops as to the scope of the retrocession, we are confident that courts will provide
a definitive interpretation of the plain language of the Proclamation. In sum, it is the
content of the Proclamation that we hereby
accept in approving retrocession.
Id.

App. 39
Plaintiff maintains that DOI’s interpretation of
the proclamation as “plain on its face and unambiguous,” and its characterization of any subsequent interpretation as “unnecessary,” amounts to an express
rejection of Governor Inslee’s subsequent clarification
that the proclamation’s intent was to retain state
criminal jurisdiction over cases involving “non-Indian
defendants and/or non-Indian victims.” Id. at 16. The
Court, however, disagrees. Rather than weighing in on
the issue, DOI expressly declined to delineate the scope
of retrocession, instead leaving it for the courts to “provide a definitive interpretation of the plain language of
the Proclamation.” ECF No. 16-1 at 36.
Informative and not necessarily binding on this
Court, a Washington court has now provided a definitive interpretation of the plain language of the Governor’s retrocession proclamation and, in doing so, has
clarified the scope of Washington’s criminal jurisdiction within exterior boundaries of the Yakama Reservation following retrocession. See State v. Zack, 2 Wash.
App. 2d 667 (2018), review denied, 191 Wash. 2d 1011
(2018). In State v. Zack, Division Three of the Washington Court of Appeals considered a jurisdictional challenge to the scope of the State’s post-retrocession
criminal jurisdiction within the Yakama Reservation,
almost identical to Plaintiff ’s challenge here. The Zack
court determined that “[t]he jurisdiction issue turns on
the meaning of the Governor’s proclamation, with the
dispositive question being the meaning of the word
‘and.’” Id. at 672. The Zack court is the only court, state
or federal, to consider whether the Governor’s use of

App. 40
the word “and” in the contested retrocession provision
should be read in the conjunctive or disjunctive.
Performing a plain language analysis, the Zack
court concluded that the word “and” should be read in
the disjunctive—i.e., “non-Indian defendant and/or
non-Indian victim”—because the conjunctive interpretation “would render the proclamation internally inconsistent and nonsensical.” Id. As the court explained,
appellant’s proposed construction, and the one advanced by Plaintiff in this case, “would mean that the
only type of case the State could prosecute would require the involvement of non-Indian defendants who
victimized other non-Indians on fee land.” Id. at 675.
However, because “[t]he State already had authority to
prosecute non-Indians for offenses committed on
deeded lands prior to the enactment of Public Law
280,” and the Governor was only authorized to retrocede jurisdiction acquired under Public Law 280, the
Zack court concluded that the conjunctive construction
“would result in the Governor engaging in ultra vires
action.” Id. at 675-76 (“Asserting or removing state
jurisdiction over non-Indians is not within the scope of
Public Law 280 or RCW 37.12.010.). The Zack court
further observed that excluding Indians from prosecution in all cases “would mean that the Governor intended to return all of the criminal jurisdiction the
State assumed by RCW 37.12.010 and the word ‘in
part’ would be rendered meaningless because there
would have been total rather than partial retrocession.” Id. at 675. For these reasons, the court held
that “the State retained jurisdiction to prosecute this

App. 41
assault against a non-Indian occurring on deeded land
within the boundaries of the Yakama reservation.” Id.
at 676.
Though the Court is not bound by the decision, the
Court finds the Zack court’s analysis and holding persuasive, particularly when considering the historical
patchwork of federal, state, and tribal criminal jurisdiction on the Yakama Reservation. Before the enactment of Public Law 280 or RCW 37.12.010, “the
Yakima Nation was subject to the general jurisdictional principles that apply in Indian country in the
absence of federal legislation to the contrary.” Confed.
Bands, 439 U.S. at 470. Under those principles, while
Indian tribes generally retain criminal jurisdiction
over Indians within Indian reservations, tribes have
no “inherent jurisdiction to try and to punish nonIndians.” Id.; Oliphant v. Suquamish Indian Tribe, 435
U.S. 191, 212 (1978). Thus, only the state possessed
criminal jurisdiction over non-Indians who committed
crimes against other non-Indians on Indian reservations. See, e.g., Draper v. United States, 164 U.S. 240,
242-43 (1896); United States v. McBratney, 104 U.S.
621, 624 (1882). Victimless crimes committed by nonIndians in Indian country are also within the exclusive
jurisdiction of the state. See Solem v. Bartlett, 465 U.S.
463, 465 n.2 (1984), Neither the federal government
nor the Tribe have jurisdiction for these crimes.
Public Law 280 authorized the State of Washington to assume full or partial jurisdiction over criminal
offenses and civil causes of action involving Indians in
Indian Country within the State’s borders. Confed.

App. 42
Bands, 439 U.S. at 471-72. In 1963, the State opted to
assume some jurisdiction under Public Law 280. See
RCW 37.12.010. As the Supreme Court explained,
“[f ]ull criminal and civil jurisdiction to the extent permitted by Pub. L. 280 was extended to all fee lands in
every Indian reservation and to trust and allotted
lands therein when non-Indians were involved.” Confed. Bands, 439 U.S. at 475. However, “state jurisdiction was not extended to Indians on allotted and trust
lands unless the affected tribe so requested,” except for
those eight areas of law specified in RCW 37.12.010(1)(8). Id.
When Congress amended Public Law 280 in 1968,
it authorized the United States to “accept a retrocession by any State of all or any measure of the criminal
or civil jurisdiction” previously acquired pursuant to
Public Law 280. 25 U.S.C. § 1323(a). By Executive Order, the Secretary of the Interior was then empowered
to accept “all or any measure” of a state’s offer of retrocession. See Exec. Order No. 11435 (Nov. 21, 1968), 33
Fed. Reg. 17339-01 (Nov. 23, 1968) (emphasis added).
However, neither § 1323 nor the Executive Order authorize the Secretary to accept more jurisdiction than
a state initially acquired under Public Law 280. Under
federal law, a state may only retrocede any measure
of jurisdiction “acquired by such State pursuant to
[Public Law 280].” 25 U.S.C. § 1323(a).
The State of Washington’s statute outlining the
retrocession process, RCW 37.12.160(1), confirms that
the State may only “retrocede to the United States
all or part of the civil and/or criminal jurisdiction

App. 43
previously acquired by the state over a federally recognized Indian tribe, and the Indian country of such
tribe.” Particularly relevant here, the statute specifically defines “criminal retrocession” as “the state’s act
of returning to the federal government the criminal jurisdiction acquired over Indians and Indian country
under federal Public Law 280.” RCW 37.12.160(9)(b).
Plaintiff urges the Court to interpret the Governor’s retrocession proclamation, and DOI’s acceptance
of retrocession, as retroceding all criminal jurisdiction
over crimes committed within the Yakama Reservation, including land held in fee by Indian and nonIndian owners, whenever an Indian is involved as a
defendant and/or victim. ECF No. 16 at 18. Stated differently, Plaintiff maintains that “[t]he only criminal
offenses over which the State retained jurisdiction are
those involving both a non-Indian defendant and nonIndian victim, as well as non-Indian victimless crimes.”
Id. at 17-18. Plaintiff claims that DOI’s acceptance of
retrocession “does not leave open the possibility of the
State continuing to play a role in Indian-involved
crimes within the Yakama Reservation.” ECF No. 16 at
16.
However, interpreting the Governor’s retrocession
proclamation as Plaintiff insists “would result in the
Governor engaging in an ultra vires action,” as the
offer of retrocession would be returning more jurisdiction to the United States than the State assumed under Public Law 280 and RCW 37.12.010. Zack, 2 Wash.
App. 2d at 676. As noted, the State’s authority to
prosecute non-Indians for crimes committed against

App. 44
non-Indians on the Yakama Reservation preexists
Public Law 280 or RCW 37.12.010. Under Plaintiff ’s
interpretation, the State would be “retaining” jurisdiction that it simply did not acquire from the United
States pursuant to Public Law 280. The Court accepts
the Zack court’s logical interpretation, which is consistent with Public Law 280 and RCW 37.12.160’s instructions.
Reading the Governor’s use of the sentence “The
State retains jurisdiction over criminal offenses involving non-Indian defendants and non-Indian victims.” in
context, both historical and in the context of the entire
retrocession proclamation, also makes it plain that the
State was retaining jurisdiction in two areas––over
criminal offenses involving non-Indian defendants and
over criminal offenses involving non-Indian victims.
The plain reading of the language thus, also shows the
limitation of the States’ retrocession.
Moreover, Plaintiff ’s interpretation directly contradicts Governor Inslee’s stated intent to “retrocede,
in part, criminal jurisdiction.” ECF No. 16-1 at 26 (emphasis added). Under Plaintiff ’s view of the scope of
retrocession, the State retroceded all criminal jurisdiction assumed under Public Law 280, retaining only
that jurisdiction that predated Public Law 280—i.e.,
the “authority to punish offenses committed by her
own citizens upon Indian reservations.” Draper v.
United States, 164 U.S. 250, 247 (1896). This interpretation is at odds with Governor Inslee’s stated intent
of retroceding some, but not all, criminal jurisdiction
acquired under Public Law 280. The Court cannot

App. 45
reconcile Plaintiff ’s illogical interpretation of the scope
of retrocession with the plain language of the Governor’s retrocession proclamation, or federal and state
law.
The Court concludes that the State retained jurisdiction over criminal offenses where any party is a
non-Indian. This interpretation is consistent with the
plain language of the Governor’s retrocession proclamation, DOI’s acceptance, and federal and state law
governing the retrocession process. Accordingly, the
Court finds that Plaintiff fails to establish success on
the merits of its claims because Defendants have criminal jurisdiction over offenses committed by or against
non-Indians within the Yakama Reservation.
B. Irreparable Injury, Hardships, & Public
Interests
The Tribes’ sovereignty has not been wrongfully
diminished by the partial retrocession of jurisdiction
preformed in accordance with the governing federal
and state law. Accordingly, the Court finds that Plaintiff has not established irreparable harm and there are
no hardships or public interests to be considered.
ACCORDINGLY, IT IS HEREBY ORDERED:
1.

Plaintiff ’s Motion for Preliminary Injunction
(ECF No. 16), converted to a request for a Permanent Injunction, is DENIED.

2.

All remaining deadlines, hearings and trial
are VACATED.

App. 46
The District Court Executive is directed to enter
this Order and Judgment for Defendants accordingly,
furnish copies to the parties, and CLOSE the file.
DATED February 22, 2019.
[SEAL]

/s/ Thomas O. Rice
THOMAS O. RICE
Chief United States District Judge

App. 47
A true copy of the Record of
the official proceedings at the Council
in the Walla Walla Valley, held jointly by
Tsaac T. Stevens Gov. & Supt. W. T.
and
Joel Palmer Supt. Indian Affairs O. T.
on the part of the United States
with the
Tribes of Indians named in the Treaties
made at that Council
June 9th. and 11th
1855
*

*

*

The Great Father has been for many years caring
for his red children across the mountains; there (pointing East) many treaties have been made. Many councils have been held; and there it had been found that
with farms and schools and with shops and with laws
the red man. could be protected.
Why do I say laws? What has made trouble between the white man and the red man? Did Lewis and
Clark make trouble? they came from the Great Father;
did I and mine make trouble? ‘No! but the trouble had
been made generally by bad white men and the Great
Father knows it, hence laws.
The Great Father therefore desires to make arrangements so you can be protected from these bad
white men, and so they can be punished for their misdeeds and the Great Father expects you will treat his
white children as he will make a law they shall treat

App. 48
you. We are now in council to see if we can arrange the
terms which will carry this into effect.
Let us go back to old times across the mountains
and see what was there done: the red man received the
white man gladly; but after a while difficulties arose;
the blood of the red man was spilled and the blood of
the white man; ‘there was cold; there was hunger; there
was death. But a man came, William Penn, and said I
will see if my white children and my red children cannot be friends, and they were friends; Wm Penn and
the Indians came
*

*

*

white man cannot enter without the consent of the red
man. On all these tracts the red man has schools and
farms and mills: they have teachers and physicians
and an agent.
Now listen carefully: On these tracts the. land was
all in common: there were one or more larger fields for
the tribes but no man had his special field: the Great
Father and his cheifs now think that is not good: the
Great Father said, the white man has his farm, his cattle and his horses; the red man shall have his farm his
cattle and his horses; the Great Father says that when
on that tract of land an Indian has his field, that field
should he his.
This brings us now, to the question. What shall we
do at this council? We want you and ourselves to agree
upon tracts of land where you will live; in those tracts
of land we want each man who will work to have his

App. 49
own land, his own horses, his own cattle, and his own
home for himself and children.
On each tract we want an agent to live who shall
be your brother, and who’ shall protect you from bad
white men shall speak more of this Subject by and by.
On each tract we wish to have one or more schools:
we want on each tract one or more blacksmiths. one or
more carpenters; one or more farmers: we want you
and your Children to learn to make ploughs, to learn
to make waggons, and every thing.which
*

*

*

App. 50
JAY INSLEE
Governor
STATE OF WASHINGTON
OFFICE OF THE GOVERNOR
P.O. Box 40002 • Olympia, Washington 985040002 • (360) 902-4111 • www.governor.wa.gov
PROCLAMATION BY THE GOVERNOR
14-01
WHEREAS, on March 19, 2012, Governor Christine
Gregoire signed Engrossed Substitute House Bill 2233,
“Creating a procedure for the state’s retrocession of
civil and criminal jurisdiction over Indian tribes and
Indian country”; and
WHEREAS, Engrossed Substitute House Bill 2233,
which became Chapter 48, Laws of 2012, creates a process by which the state of Washington (hereafter, “the
State”) may retrocede to the United States all or part
of the civil and criminal jurisdiction previously acquired by the State over a federally recognized Indian
tribe, and the Indian country of such tribe, under federal Public Law 280, Act of August 15, 1953; and
WHEREAS, on March 13, 1963, in accordance with
federal Public Law 280, Act of August 15, 1953, the
State assumed partial civil and criminal jurisdiction,
subject to the limitations in RCW 37,12,021 and RCW
37.12.060, within the Indian country of the Confederated Tribes and Bands of the Yakama Nation (hereafter, “Yakama Nation”) pursuant to Chapter 36, Laws of
1963; and

App. 51
WHEREAS, after March 13, 1963, the Yakama Nation
did not invoke with the State the provision of RCW
37.12.021 but chose to rely upon the rights and remedies of its Treaty of 1855 with the United States, 12
Stat. 951 and federal laws; and
WHEREAS, on January 11, 1980, the Assistant Secretary-Indian Affairs, United States Department of the
Interior, approved the Yakama Nation’s petition for reassumption of jurisdiction over Indian child custody
proceedings under the Indian Child Welfare Act of
1978. Effective March 28, 1980, the Yakama Nation reassumed jurisdiction over Yakama Indian child custody proceedings; and
WHEREAS, on July 17, 2012, the Yakama Nation filed
a retrocession petition with the Office of the Governor.
The retrocession petition by the Yakama Nation requests full retrocession of civil and criminal jurisdiction on all of Yakama Nation Indian country and in five
areas of RCW 37.12.010, including: Compulsory School
Attendance; Public Assistance; Domestic Relations; Juvenile Delinquency; and Operation of Motor Vehicles
on Public Streets, Alleys, Roads, and Highways; and
WHEREAS, Governor Gregoire convened government-to-government meetings with the Yakama Nation to discuss the Nation’s retrocession petition. In the
course of those meetings, the Yakama Nation and Governor Gregoire confirmed that the Yakama Nation asks
the State to retrocede all jurisdiction assumed pursuant to RCW 37.12.010 in 1963 over the Indian country
of the Yakama Nation, both within and without the

App. 52
external boundaries of the Yakama Reservation. However, the Yakama Nation requests that the State retain
jurisdiction over mental illness as provided in RCW
37.12.010(4), and jurisdiction over civil commitment of
sexually violent predators under RCW 71.09, and
acknowledges that the State would retain criminal jurisdiction over non-Indian defendants; and
WHEREAS, Governor Jay Inslee convened further
government-to-government meetings between the
State and Yakama Nation. The Governor’s Office has
also consulted with elected officials from the jurisdictions proximately located to the Yakama Nation’s Indian country; and
WHEREAS, on July 9, 2013, Governor Inslee exercised the six-month extension provision for issuing a
proclamation, pursuant to RCW 37.12.160; and
WHEREAS, strengthening the sovereignty and independence of the federally recognized Indian tribes
within Washington State is an important priority for
the State; and
NOW, THEREFORE, I, Jay Inslee, Governor of the
state of Washington, by virtue of the authority vested
in me by Section 37.12.160 of the Revised Code of
Washington, do hereby grant in part, and deny in part,
the retrocession petition submitted by the Confederated Tribes and Bands of the Yakama Nation, according to the following provisions:
1.

Within the exterior boundaries of the Yakama Reservation, the State shall retrocede full civil and

App. 53
criminal jurisdiction in the following subject areas
of RCW 37.12.010: Compulsory School Attendance; Public Assistance; Domestic Relations; and
Juvenile Delinquency.
2.

Within the exterior boundaries of the Yakama Reservation, the State shall retrocede, in part, civil
and criminal jurisdiction in Operation of Motor
Vehicles on Public Streets, Alleys, Roads, and
Highways cases in the following manner: Pursuant to RCW 37.12.010(8), the State shall retain jurisdiction over civil causes of action involving nonIndian plaintiffs, non-Indian defendants, and nonIndian victims; the State shall retain jurisdiction
over criminal offenses involving non-Indian defendants and non-Indian victims.

3.

Within the exterior boundaries of the Yakama Reservation, the State shall retrocede, in part, criminal jurisdiction over all offenses not addressed by
Paragraphs 1 and 2. The State retains jurisdiction
over criminal offenses involving non-Indian defendants and non-Indian victims.

4.

Jurisdiction over Indian child custody proceedings
under RCW 37.12.010(3) and Adoption proceedings and Dependent Children pursuant to RCW
37.12.010(6) and (7), which the Yakama Nation reassumed in 1980 under the Indian Child Welfare
Act, shall remain under the exclusive jurisdiction
of the Yakama Nation.

5.

Outside the exterior boundaries of the Yakama
Reservation, the State does not retrocede jurisdiction. The State shall retain all jurisdiction it assumed pursuant to RCW 37.12.010 in 1963 over

App. 54
the Yakama Nation’s Indian country outside the
Yakama Reservation.
6.

Nothing herein shall affect the State’s civil jurisdiction over the civil commitment of sexually violent predators pursuant to chapter 71.09 RCW
and the State must retain such jurisdiction notwithstanding the completion of the retrocession
process authorized under RCW 37.12.160.

7.

Pursuant to RCW 37.12.010, the State shall retain
all jurisdiction not specifically retroceded herein
within the Indian country of the Yakama Nation.

8.

This Proclamation does not affect, foreclose, or
limit the Governor’s authority to act on future requests for retrocession under RCW 37.12.160.

Signed and sealed with the official seal of the state of
Washington, this 17th day of January, A.D. Two-thousand and Fourteen, at Olympia, Washington.
[SEAL]

BY:
/s/ Jay Islee
Jay Islee, Governor

BY THE GOVERNOR
/s/ [Illegible]
Secretary of State

App. 55
JAY INSLEE
Governor
STATE OF WASHINGTON
Office of the Governor
P.O. Box 40002 • Olympia, Washington 985040002 • (360) 902-4111 • www.governor.wa.gov
January 27, 2014
The Honorable Kevin Washburn
Assistant Secretary of Indian Affairs
U.S. Department of Interior
MS-4141 MIB
1849 C. Street, N.W.
Washington, D.C. 20240
Re:

Yakama Nation Retrocession Petition

Dear Assistant Secretary Washburn:
Pursuant to 25 U.S.C. §1323 and Revised Code of
Washington (RCW) 37.12, I have included the attached
proclamation, signed by me on January 17, 2014. The
proclamation addresses a retrocession petition submitted by the Confederate Tribes and Bands of the
Yakama Nation in Washington State.
On March 19, 2012, former Washington State Governor Christine Gregoire signed Engrossed Substitute I
louse Bill 2233. This important piece of legislation created a process by which the state of Washington may
retrocede to the United States civil and criminal jurisdiction previously acquired by the State over a federally recognized Indian tribe under federal Public Law
280 in 1953. The bill gives the Governor of the state of
Washington the authority to approve, in whole or in

App. 56
part, a retrocession petition submitted by a Washington State Indian tribe. Final approval rests with the
U.S. Department of the Interior.
On July 17, 2012, the Yakama Nation filed a retrocession petition with the Office of the Governor requesting
full civil and criminal jurisdiction on all of Yakama Nation Indian country in five specific areas of RCW
37.12.010. I believe that the enclosed Proclamation is
a great first step towards strengthening the sovereignty and independence of the Yakama Nation.
In paragraph one of the proclamation, the State grants
exclusive civil and criminal jurisdiction within the exterior boundaries of the Yakama Reservation in four
subject areas of RCW 37.12.010: Compulsory School
Attendance; Public Assistance; Domestic Relations;
and Juvenile Delinquency.
In paragraph two, the proclamation also grants to the
Yakama Nation civil and criminal jurisdiction within
the exterior boundaries of the reservation in Operation
of Motor Vehicles on Public Streets, Alleys, Roads, and
Highways cases which do not involve non-Indian plaintiffs, non-Indian defendants, or non-Indian victims. I
would note that the proclamation itself states that the
State will retain jurisdiction in these cases over civil
causes of action involving “non-Indian plaintiffs, nonIndian defendants, and non-Indian victims,” as well as
in criminal cases involving “non-Indian defendants
and non-Indian victims.” The intent set forth in paragraph two, however, is for the State to retain jurisdiction in this area where any party is non-Indian, and

App. 57
therefore may be more properly read in both instances
as the State retaining jurisdiction in those cases involving “non-Indian plaintiffs, non-Indian defendants
and/or non-Indian victims.” I respectfully request that
the Department make this clear in the notice accepting
the retrocession Proclamation.
Finally, in paragraph three of the proclamation, the
State is also retroceding criminal jurisdiction within
the exterior boundaries of the reservation over all offenses not specifically addressed in paragraphs one
and two, which do not involve non-Indian defendants
or non-Indian victims. Again, I would note that in this
paragraph the proclamation states that the State retains jurisdiction over criminal offenses involving
“non-Indian defendants and non-Indian victims,” but
the intent is for the State to retain such jurisdiction in
those cases involving non-Indian defendants and/or
non-Indian victims.”
The proclamation does deny part of the petition by the
Yakama Nation, and allow the State to retain existing
civil and criminal jurisdiction in a limited number of
areas. First and foremost, the State is retaining its existing jurisdiction outside of the exterior boundaries of
the Yakama Reservation, including all trust and fee
lands. Moreover, consistent with the description above,
the State is retaining civil and criminal jurisdiction in
Operation of Motor Vehicle cases that involve nonIndian plaintiffs, non-Indian defendants, and/or nonIndian victims.

App. 58
It is important to note that nothing in the proclamation changes the existing jurisdiction the Yakama Nation has over Indian child custody proceedings under
RCW 37.12.010(3) and Adoption proceedings and Dependent Children pursuant to RCW 37.12.010(6) and
(7). The Yakama Nation reassumed jurisdiction over
these subjects in 1980 under the Indian Child Welfare
Act, and shall remain under the exclusive jurisdiction
of the Yakama Nation.
Similarly, nothing in the proclamation shall affect the
State’s civil jurisdiction over the civil commitment of
sexually violent predators pursuant to chapter 71.09
RCW and the State must retain such jurisdiction notwithstanding the completion of the retrocession process authorized under RCW 37.12.160.
Thank you for accepting this proclamation on behalf of
the state of Washington and for working to bring the
retrocession petition to fruition. I look forward to continue working with you and the Yakama Nation on this
issue moving forward.
Sincerely,
/s/ Jay Inslee
Jay Inslee
Governor

App. 59
[SEAL]

U.S. Department of Justice
Office of Tribal Justice
(202) 514-8812
Room 2318, RFK Main
FAX (202) 514-9078
Justice Building
950 Pennsylvania
Avenue, N.W.
Washington, D.C.
20530-0001
July 29, 2015

Kevin Washburn
Assistant Secretary for Indian Affairs
Department of the Interior
Washington, DC 20240
Dear Assistant Secretary Washburn:
In a letter dated June 16, 2014 you asked that the
Attorney General consult with the Department of the
Interior regarding a retrocession request from the
State of Washington concerning the Confederated
Tribes and Bands of the Yakama Nation (Yakama Nation). I have been asked to respond to your letter.
As you are aware the Department of Justice has actively engaged in consultation with the Department of
the Interior regarding the Yakama Nation retrocession
request. This included a number of visits to the
Yakama Nation, continuing communications with the
Tribe, and frequent meetings with the staff of the Bureau of Indian Affairs (BIA). One of the more productive visits to the Yakama Nation related to our
consultation with the Department of the Interior involved you, the Deputy Director for the Office of Justice

App. 60
Services at BIA, and the U.S. Attorney for the Eastern
District of Washington.
The Department of Justice believes that consultation
between our agencies has been very thorough and extremely useful. As a result of almost a year of ongoing
communication, the consultation requirement contained in Executive Order 11435 has clearly been satisfied. In recognizing the end of our consultation on the
State of Washington’s retrocession request, we note
one additional issue for your consideration.
If you accept the retrocession request from the State of
Washington, the Department of Justice would recommend a period of at least six months between the date
of acceptance and the actual transfer of jurisdiction.
This period would allow for an orderly transfer of jurisdiction from the State of Washington to the Federal
government. The Department of Justice would be
happy to provide such assistance as would be appropriate in realizing the transfer of jurisdiction.
I want to thank you and your talented staff for the Department of the Interior’s thoughtful participation in
this consultation. We look forward to your decision in
this matter.
Sincerely,
/s/ Tracy Toulou
Tracy Toulou
Director
Office of Tribal Justice

App. 61
[SEAL] United States Department of the Interior
OFFICE OF THE SECRETARY

Washington, DC 20240
OCT 19 2015
The Honorable JoDe Goudy
Chairman, Confederated Tribes
and Bands of the Yakama Nation
P.O. Box 151, Fort Road
Toppenish, Washington 98948
Dear Chairman Goudy:
I am pleased to notify you of our acceptance of retrocession to the United States of partial civil and criminal jurisdiction over the Yakama Nation (Nation).1 The
Department of the Interior (Department) congratulates the State of Washington (State) and the Nation
on the careful and deliberative process used to reach
agreement on retrocession.2 We have attempted to be
equally deliberative in our process. We explain below
the process of our decisionmaking, the reasons for our
1

Jurisdiction was previously acquired by the State of Washington pursuant to Public Law 83-280, 67 Stat. 588, codified as
amended at 18 U.S.C. 1162, 28 U.S.C. 1360, and as provided in
Revised Code of Washington 37.12.010, 37.12.021, 37.12.030,
37.12.040, and 37.12.060 (1963), and 37.12.050 (1957).
2
The intended acceptance is pursuant to 25 U.S.C. § 1323
and authority vested in the Secretary of the Interior by Executive
Order No. 11435 of November 21, 1968, 33 Fed. Reg. 17339, and
delegated to the Assistant Secretary – Indian Affairs. It is also
pursuant to the request by the State of Washington reflected in
the Proclamation of the Governor 14-01, signed on January 17,
2014, and transmitted to the Assistant Secretary – Indian Affairs
in accordance with the process set forth in RCW 37.12.160 (2012).

App. 62
decision, and the effective date of complete implementation.
It is important to understand what retrocession
means. Some correspondence and media reports reflect
confusion about the meaning of retrocession. Retrocession does not affect the Nation’s formal legal authority
or jurisdiction in any way. Indeed, the Nation’s authority neither contracts nor expands in light of retrocession. The Nation’s jurisdiction simply will no longer be
concurrent with the State’s; rather, the Nation’s jurisdiction will be exclusive for certain purposes. In its retrocession request, the State wishes to give up a portion
of the authority that had been delegated to it by Congress under Public Law 280. The sole legal effect of retrocession is to restore Federal authority to the Federal
Government over certain categories of offenses within
the Yakama Reservation. In short, the primary effect
of retrocession is that the State will transfer back to
the Federal Government Federal authority that the
State had been delegated under Public Law 280. As a
result, under retrocession, the State has chosen to retract state authority, Federal authority will resume,
and the Nation’s authority will remain the same as it
has always been.
The road to retrocession has been a long one for the
Nation. We commend the State for establishing a formal procedure on retrocession of state criminal and
civil jurisdiction to address this issue proactively and
thoughtfully. Engrossed Substitute House Bill 2233,
enacted in 2012, provided a path for the State and
tribal nations to follow in addressing retrocession.

App. 63
After filing the retrocession petition with the Governor
in July of 2012, the Nation engaged in government-togovernments meetings with the State. The Nation also
entered into a 2013 Memorandum of Understanding
with Yakima County regarding the procedures to serve
state court arrest warrants on tribal members on trust
land within the Yakama Reservation. After following
the procedures set forth in House Bill 2233, including
a 6-month extension by the State, the Governor submitted the Proclamation for our approval in January
of 2014.
From the time the Proclamation was submitted, the
Office of Justice Services (OJS) within the Bureau of
Indian Affairs (BIA) has engaged with the Yakama Nation Tribal Police Department and Corrections to determine the capacity of the Nation’s law enforcement
services. In preparation for retrocession, the Nation
committed additional resources to their law enforcement services. The Nation has nearly doubled the size
of the police department by funding 10 new police officer positions. In September of 2014, OJS finalized an
assessment of the Nation’s Police Department, which
found the Nation has the capacity to respond to an increased number of emergency calls for service and
would be prepared to handle increased responsibilities
as a result of retrocession.
One of the critical elements of success in preparing for
exclusive criminal jurisdiction over some offenses
committed by Native Americans is an effective tribal
court. In December of 2014, OJS began an assessment
of the Yakama Nation Tribal Court. This assessment

App. 64
provided recommendations for improving tribal court
operational activities and assisted in developing a
strategic 3-5 year plan for the court. On May 6, 2015,
OJS issued the tribal court assessment and strategic
plan, including findings and recommendations. As a result of these findings, $149,000 in one-time Federal
funding was provided to address the following issues:
1) assistance in acquiring necessary equipment, including computers, scanners, and other items, related
to the infrastructure of the court; 2) increased salary
of law-trained judges; 3) hiring a legal assistant to assist civil pro-se litigants; 4) hiring a court administrator; 5) providing training to tribal judges and tribal
prosecutors and defenders on issues involving domestic violence, child abuse, and neglect; and 6) providing
relevant training to the court administrator. Discussions have also occurred regarding Fiscal Year 2016
funding for a court management system. Together
these efforts will help the Nation further the pursuit
of justice and ensure that individuals’ rights are protected.
The OJS has also actively engaged in developing partnerships and opening lines of communication between
the Nation’s police, local law enforcement, county prosecutor’s office, the Federal Bureau of Investigation
(FBI), and the U.S. Attorney’s Office. This has created
a more cooperative relationship between law enforcement agencies. As a result, crimes are now less likely
to go uninvestigated or unprosecuted.
As is our practice when reviewing retrocession requests, the Department worked closely with the

App. 65
Department of Justice (DOJ) in evaluating the request. In March of 2014, the Department participated
in meetings with the DOJ Office of Tribal Justice and
the U.S. Attorney’s Office in the Eastern District of
Washington. On June 16, 2014, the Department formally requested, as set forth in Executive Order No.
11435, the consultation and opinion of the Attorney
General with respect to retrocession of criminal jurisdiction. We must work closely with the DOJ in making
this decision because, while the decision is vested with
the Department, DOJ has significant equities in light
of the additional investigative and prosecution work
that is likely to be required of FBI and the United
States Attorney’s Office in the Eastern District of
Washington.
United States Attorney Michael C. Ormsby has been
key to our consideration of retrocession. In a letter
dated April 3, 2015, to the Acting Deputy Attorney
General, the U.S. Attorney expressed caution and
stressed the need for careful implementation, but he
also noted that the relevant Federal and tribal partners have worked hard in recent years to improve communication and have developed what he described
as a “strong, collaborative working relationship[.]” He
also noted that the Nation has developed a “symbiotic
working relationship with FBI and the USAO” in particular.
The U.S. Attorney vowed to make retrocession successful if it occurs. In his letter, the U.S. Attorney identified
with great specificity what needs to happen if retrocession is approved, as well as what has not yet occurred.

App. 66
His guidance has been very helpful. Since law enforcement agencies tend to address matters by priority, it is
sometimes difficult to prioritize matters that remain
hypothetical. This letter provides the concrete decision
that will enable the interested jurisdictions to prioritize plans for implementation.
The U.S. Attorney proposed an implementation period
of 6-12 months for law enforcement agencies to develop
transition plans. As the chief Federal law enforcement
officer in the Eastern District of Washington, his leadership will be crucial in ensuring successful implementation. Accordingly, we have worked his proposal into
our decision.
On January 26, 2015, the Department held a formal
tribal consultation with the Nation, DOJ, and the
United States Attorney’s Office to discuss the proposed
retrocession. On that occasion, we heard from the Nation the importance of retrocession. We also toured
some of the Nation’s police training and criminal justice facilities. Since long before statehood for the State
of Washington, the Nation and the United States Government have had a government-to-government relationship, evidenced most clearly by the Nation’s Treaty
with the United States of 1855. The consultation continued that relationship.
During our meetings on the Yakama Reservation,
Councilmember Virgil Lewis, who chairs the Tribal
Council’s Law and Order Committee, advised us of the
steps that the Nation has taken to prepare for implementation. He assured us that the Nation has the staff

App. 67
and the employees to undertake law enforcement for
the Nation. He was frank and transparent about the
opportunities as well as the challenges that retrocession would create. While the Nation’s detention center,
for example, is a state-of-the-art facility, the tribal
court and the police department have certain needs.
Following retrocession, the State will no longer have
jurisdiction over tribal members as to the offenses for
which retrocession has been granted. Thus, the entire
responsibility for policing such offenses will rest on the
shoulders of the Nation and the United States. As
noted above, the Nation’s authority has not expanded,
but the weight of its responsibility has indeed increased. Accordingly, tribal leadership and the U.S.
Attorney, rather than State, county or municipal leadership, will now bear the responsibility and the accountability to tribal members for public safety on the
Yakama Reservation. Following our meetings on the
reservation, I am confident that the Nation is committed to carrying the weight of this responsibility.
In March of 2015, FBI finalized a report on the implications of retrocession. This report was written at the
request of the Office of Tribal Justice. The report concluded that the impact of retrocession was unknown
but indicated similarly sized tribes have experienced
positive impacts from retrocession. We note that, as a
result of retrocession, FBI and U.S. Attorney’s Office
will undertake the same role that their sister offices
play on dozens of reservations throughout the western
United States, including Arizona, Montana, New Mexico, and South Dakota.

App. 68
On April 30, 2015, I met with the Governor’s General
Counsel to discuss retrocession. An issue that has been
highlighted in several meetings is related to reservation boundaries. We have assured anyone who has
asked that this process is not a mechanism for redrawing reservation boundaries. The scope of the Yakama
Nation’s territorial jurisdiction will be governed by
Federal law. The decision before my Office is nothing
more than an acceptance of the State’s request for retrocession. As explained to the Governor’s office, this decision is not intended to affect the boundaries of the
reservation in any way. As noted above, this decision
does not expand tribal jurisdiction; it merely eliminates State authority over certain offenses on the reservation.
The Department also received correspondence from local government representatives about the retrocession
request from the State. For example, a letter from Yakima County, signed by Prosecuting Attorney Joseph
A. Brusic, Sheriff Brian Winter, and all three County
Commissioners, expressed a strong desire to see the
retrocession process succeed. They asked for an opportunity to have discussions with the Nation and the
Federal Government in an effort to reach agreement
on protocols. We will be happy to convene meetings to
help facilitate implementation of retrocession. We note,
however, that it would constitute extreme hubris for a
Federal official more than 2,500 miles away in Washington, D.C., to attempt to resolve disputes between
neighbors in the Yakima Valley. That said, the County’s
request is consistent with the request of the U.S.

App. 69
Attorney and DOJ, and we certainly are willing to create time and space for such discussions.
We appreciate the unanimous expression of support
from Yakima County officials. We expect cooperation to
be forthcoming. It is our experience that law enforcement officers tend to share a strong esprit de corps and
a mutual respect that crosses jurisdictional and even
sovereign lines. It comes from the common experience
of performing a very difficult job every day as well as a
common commitment to protecting the public. Whatever the views of political leadership, when the chips
are down and danger is afoot, officers on the beat tend
to support one another. We are confident that, police
officers working on the ground will be able to develop
agreements on mutual aid, cross-deputation, and other
needed mechanisms for cooperation. Indeed, in light of
increasing fiscal constraints, cooperation in stretching
resources is more important than ever. Moreover, in
this age of tremendous scrutiny of law enforcement, it
is entirely appropriate that police officers arresting
Native Americans on the Yakama Reservation be more
responsive to tribal officials. It is also appropriate for
tribal suspects to answer to tribal institutions, such as
tribal courts and tribal juries. This will increase the
legitimacy of criminal justice decisions. We hope that
this is one of the many positive outcomes of retrocession.
While Congress assigned the decision on retrocession
to officials in Washington, DC, it will require careful
cooperation between the Nation and the local

App. 70
subdivisions of state government, such as the counties
and municipalities, to make it work well.
In early August of 2015, the Department received the
DOJ’s response to our letter requesting the Attorney
General’s views on retrocession. The DOJ declined to
state a position in favor of or against retrocession. It
did, however, recommend that the Department consider a 6-month waiting period between the date of acceptance and actual transfer of jurisdiction in order to
allow for an orderly transfer of authority from the
State to the Federal Government.
In deference to the counsel of DOJ, a specific period to
allow the relevant agencies to coordinate their actions
going forward is granted. I am confident that the Nation, working with the U.S. Attorney’s Office and BIA
OJS can accomplish all of the tasks needed for actual
implementation in six months. Accordingly, our decision is that retrocession will be implemented completely as of 12:01 a.m. PST on April 19, 2016.
It is worth noting one final issue has been raised regarding the extent of retrocession. Washington law
clearly sets forth the process for retrocession of civil
or criminal jurisdiction in Washington State.3 The process requires the Governor to convene a governmentto government meeting, within 90 days of receiving a
retrocession resolution, for the purpose of considering
the Nation’s resolution.4 Within one year of receipt of
3
4

RCW 37.12.160.
See RCW 37.12.160(3).

App. 71
the resolution the Governor must issue a proclamation, approving the request either in whole or in part,
and formally submit the proclamation to the Federal
Government.5 We understand the Proclamation to be
the final product resulting from the formal government-to-government meetings. We also believe that
the Proclamation is plain on its face and unambiguous.
We worry that unnecessary interpretation might
simply cause confusion. If a disagreement develops as
to the scope of the retrocession, we are confident that
courts will provide a definitive interpretation of the
plain language of the Proclamation. In sum, it is the
content of the Proclamation that we hereby accept in
approving retrocession.
The Nation has long awaited retrocession and will soon
take the next step towards greater control over its
tribal justice system. While tribal self-governance has
long been the Federal Government’s guiding principle
for Federal Indian policy, it has been slow in coming in
the area of criminal justice. Tribal self-governance is
more important in this area of public policy and government service than perhaps any other. It would be
difficult for this office to reject an agreement reached
between the State of Washington and the Yakama Nation, especially one that seeks to facilitate greater
tribal self-governance over a matter as important as
law enforcement and public safety. We believe that this
step will advance tribal self-governance and tribal sovereignty for the Nation. More importantly, we believe
5

See RCW 37.12.160(4).

App. 72
that it will produce improved public safety for the
Nation and its people.
If you have questions, please contact Mr. Darren
Cruzan, Director, Bureau of Indian Affairs, Office of
Justice Services, 1849 C Street, NW, Mailstop 2615,
Washington, DC 20240, or by telephone (202) 208-5787.
Sincerely,
/s/ Kevin K. Washburn
Kevin K. Washburn
Assistant Secretary – Indian Affairs
cc: Governor, State of Washington
Director, Office of Tribal Justice,
U.S. Department of Justice
United States Attorney, Eastern District of
Washington

App. 73
[SEAL]
OFFICE OF THE SECRETARY
OF THE INTERIOR
EXECUTIVE SECRETARIAT
Correspondence Transmittal
Date ES Received: 1210512016
Date Forwarded for Signature: 1210512016
ES Tracking #: ESO-00073772
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

To:

Cruzan, Darren

From:

Roberts, Lawrence S.
Principal Deputy Assistant Secretary –
Indian Affairs

Subject:

Guidance to State, Local, and Tribal Law
Enforcement Agencies on Yakama Retrocession Implementation

Response Guidance to State, Local, and Tribal Law
Summary: Enforcement Agencies on Yakama
Retrocession Implementation
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Lead Response Office: IA – ASIA
Response Writer:

L. Roberts

Surnaming Office Approved By Date Approved
DOJ

T. Toulon

11/29/2016

IA – COS

S. Wafters

11/29/2016

SOL

J. Cummings

11/29/2016

SOL – DIA

E. Shepard

11/29/2016

App. 74
Deputy Secretary

__________

________

Associate Deputy Secretary __________ ________
Executive Secretariat
Secretary
SIGMAC:

W

11/30/06

__________
Other (NOT SECRETARY): __________

COMMENTS:

[SEAL]
United States Department of the Interior
OFFICE OF THE SECRETARY
WASHINGTON, D.C. 20240
NOV 30 2016
TO:

Darren Cruzan
Director, Office of Justice Services
Bureau of Indian Affairs

FROM:

Lawrence S. Roberts
Principal Deputy Assistant Secretary

SUBJECT: Guidance to State, Local, and Tribal Law
Enforcement Agencies on Yakama Retrocession Implementation
In October 2015, the Department of the Interior (Department) issued a decision regarding the retrocession
of jurisdiction over the Yakama Reservation. This
guidance is issued to assist Federal, tribal, state and
local law enforcement in their implementation of
the Department’s decision. The jurisdictional matrix

App. 75
provided in this guidance is intended to provide law
enforcement officers, prosecutors, and other officials
tasked with maintaining public safety on the Yakama
Reservation a simple tool to promote consistency in
their on-going implementation within the Yakama
Reservation.
On January 17, 2014, Governor Inslee signed a Proclamation retroceding jurisdiction over civil and criminal
matters within the bounds of the Yakama Reservation.
Former Assistant Secretary – Indian Affairs Kevin
Washburn’s October 19, 2015 decision (attached) explains clearly the scope of the United States jurisdiction post-retrocession. As Assistant Secretary
Washburn noted, the scope of retroceded jurisdiction
outlined in the Proclamation “is plain on its face and
unambiguous.” The Assistant Secretary concluded that
the State retroceded full civil and criminal jurisdiction
in the areas of compulsory school attendance, public
assistance, domestic relations and juvenile delinquency; jurisdiction over operation of motor vehicles on
public roads except where civil causes of action involve
“non-Indian plaintiffs, non-Indian defendants, and
non-Indian victims” and criminal offenses involving
“non-Indian defendants and non-Indian victims;” and
criminal jurisdiction over all other offenses except
when they involve “non-Indian defendants and nonIndian victims.”1 The Assistant Secretary’s decision is

1

Proclamation at 2.

App. 76
consistent with a recent ruling of the Federal District
Court for the Eastern District of Washington.2
In other words, Washington State retains jurisdiction only over civil and criminal causes of action in
which no party is an Indian. The State has retroceded
jurisdiction over all other matters to the United States.
This retrocession does not affect the concurrent jurisdiction of the Yakama Nation, which exists at all times
and has not been ceded. Additionally, the status of land
is no longer a factor in determining criminal jurisdiction, as the Proclamation states “within the exterior
boundaries of the Yakama Reservation” and no distinction is made between fee and trust land. Although
jurisdiction was retroceded over a year ago, the importance of collaboration among all government entities with law enforcement responsibilities on and
around the Yakama Reservation remains. I respectfully encourage all entities to enter into Intergovernmental Agreements that promote cooperation within
and near the Yakama Reservation.
The chart below illustrates the jurisdictional scheme
post-retrocession for criminal cases on the Yakama
Reservation.

2

See Klickitat County v. Dept of the interior, No. 1:16-CV03060-LRS, slip op. at 10 (E.D. Wash. Sept. 1, 2016).

App. 77
Criminal Jurisdiction on the Yakama
Reservation post-retrocession
Victim

Defendant
Indian

Non-Indian

Indian

Tribe: Yes
Federal: Yes
State: No

Tribe: No*
Federal: Yes
State: No

Non-Indian

Tribe: Yes
Federal: Yes
State: No

Tribe: No
Federal: No
State: Yes

Victimless**

Tribe: Yes
Federal: Yes
State: No

Tribe: No
Federal: No
State: Yes

* Under the VAWA reauthorization of 2013, Tribes
have the authority to exercise special domestic violence criminal jurisdiction, regardless of Indian or
Non-Indian status, provided that certain requirements
are met. As of September 2016, Yakama is currently
not exercising such jurisdiction.
** For the purposes of this chart, criminal traffic offenses fall under this category.
Attachment
Cc: Office of Tribal Justice, U.S. Department of Justice

App. 78
From: Brian Winter <brian.winter@co.yakima.wa.us>
Date Thu, Apr 21, 2016 at 6 25 PM
Subject: Yakima County Retrocession Documents
To: bobs@klickitatcounty.org <bobs@klickitatcounty.
org>, Adam Diaz <adiaz@cityoftoppenish.us>,
Richard Needham <rneedham@wapato-city.org>,
Cobb, Gregory (Gregory.Cobb@uniongapwa.gov)
<Gregory.Cobb@uniongapwa.gov>
Cc Richard Melville richard melville@bia gov
Gentlemen,
I realized I had not sent these documents out. Attached
are the 2 jurisdictional flow charts we are currently using, and the PowerPoint presentation on Retrocession
that I gave to a group today (provides the “backstory”
for Retrocession). I hope they are u eful in ome way to
you
Brian
Sheriff Brian Winter
Yakima County Sheriff ’ Office
1822 S. 1st Street
Yakima, WA 98903
(509) 574-2600
___
Bob Songer
Sheriff
Klickitat County, Washington
Cell # 509-261-1833
Office # 509 773 4455
_____________________________________

App. 79
2 attachments
Post-Retrocession Jurisdictional Flow Charts v2
4-19-16.xlsx 17K
Yakama Nation Retrocession.pptx 117K

App. 80

App. 81

App. 82
Retrocession on the Yakama
Reservation
April 19, 2016
(What does it mean for the residents of the Yakama
Reservation and the rest of Yakima County?)

2015 – BIA Accepts WA State Retrocession
•

On October 19, 2015, the Assistant Secretary of
the Bureau of Indian Affairs (BIA), Kevin Washburn, sent out a News Release announcing the
acceptance of Retrocession, from the State of
Washington, by the United States. In it, he announced that Retrocession would be effective on
the Yakama Reservation at 12:01 am on April 19,
2016, 6 months from the date of the News Release.
He accepted the original wording in the Proclamation, which was “non-Indian defendants and victims”. The state retained jurisdiction in those
cases where there is both a non-Indian defendant
and a non-Indian victim.

•

The Yakama Nation or the United States (FBI/US
Atty) has jurisdiction in all cases involving enrolled members as either suspects or victims.

App. 83
2016 – The Bottom Line
•

Retrocession does apply within the Yakama Reservation boundaries.

•

Retrocession does give the Yakama Nation civil
and criminal authority over enrolled members of
federally recognized Indian tribes.

•

Retrocession does mean that for purposes of criminal and civil jurisdiction, trust and deeded lands
on the Yakama Reservation are treated the same,
whether inside or outside of city limits.

•

Retrocession does not change the Yakama Reservation boundary.

•

Retrocession does not give the Yakama Nation
criminal authority over non-tribal suspects, unless
there is an enrolled tribal victim, in which case the
United States will investigate and prosecute.

Nuts and Bolts
•

As of 12:01 am on April 19, 2016, the State of
Washington no longer exercises concurrent jurisdiction with the Yakama Nation over enrolled
tribal members on the Yakama Reservation.

•

If the suspect in an incident is an enrolled member
of a federally recognized Indian tribe, Tribal PD
and/or the FBI will have jurisdiction.

•

Many city Police Officers, WSP Troopers, Yakama
Tribal Police Officers and Yakima County Sheriff ’s
Office Deputies recently completed 2 1/2 days of
BIA Criminal Jurisdiction in Indian Country

App. 84
(CJIC) training. As a result, most were granted
BIA Special Law Enforcement Commissions
(SLEC), which are now in effect on the Yakama
Reservation. This will give them limited BIA authority on the Yakama Reservation, and the nontribal agencies the ability to assist Tribal PD in
some criminal investigations.

Nuts and Bolts
(Cont.)
•

Law enforcement (LE) response: In many incidents or emergencies reported to LE agencies,
we do not know whether the suspect is an enrolled
tribal member. We will only find that out during
the course of the investigation. At the point where
a non-tribal LE agency (YCSO, Toppenish PD,
Wapato PD, Union Gap PD, or WSP) finds out that
the suspect is an enrolled tribal member, they will
call Tribal PD and turn the investigation over to
Tribal PD.

•

Conversely, at the point in an incident or investigation where Tribal PD officers discover that they
are dealing with both a non-tribal suspect and victim, they will turn the incident over to a non-tribal
LE agency.

App. 85
Nuts and Bolts
(Cont.)
•

Traffic Stops: As with response to criminal incidents, all police officers on the Yakama Reservation will continue to stop drivers who are violating
traffic laws, through driving behavior or equipment issues. If a non-tribal police officer finds the
driver is an enrolled tribal member, he/she will either clear the stop or contact Tribal PD for enforcement action.

•

Conversely, if a Tribal police officer finds the driver
is not an enrolled tribal member, he/she will either
clear the stop, issue a civil infraction, or contact a
non-tribal LE agency for enforcement action. This
is because Tribal PD already has the authority to
issue civil infraction notices to non-tribal members on the Yakama Reservation.

Decision Points – In Order
•

Decision #1: Is it located on the Yakama Reservation?
•

•

No = State jurisdiction. Yes = Need further
info.

Decision #2: Is the suspect an enrolled tribal member?
•

Yes = Tribal or US (FBI/US Atty) jurisdiction.
No = Need further info.

App. 86
•

Decision #3: Is it a “victimless” crime?
•

•

Decision #4: Is the victim an enrolled tribal member?
•

•

Yes = State jurisdiction. No = Need further
info.

Yes = Tribal or US (FBI/US Atty) jurisdiction.
No = State jurisdiction.

Decision #5: What is the crime? Is it a misdemeanor or a felony?
•

Misdemeanor = Tribal jurisdiction. Felony =
US (FBI/US Atty) jurisdiction.

Retrocession – In Summary
•

Retrocession occurred last in 2006 (10 years ago!)
in Nebraska.

•

Retrocession provides the Yakama Nation with exclusive authority (for certain purposes) over enrolled members of federally recognized Indian
tribes on the Yakama Reservation.

•

All the LE agencies, both Tribal and non-Tribal,
will continue to work together to ensure public
safety on the Yakama Reservation. The Yakama
Tribal Council has made clear from the start that
its #1 priority was public safety. We are all committed to that goal.

App. 87
•

We also have good, open and regular contact and
communication with the Yakama Nation Police
Department leadership.

•

Most people will not notice much of a difference in
day-to-day LE operations on the Reservation.

App. 88

App. 89

App. 90
Jeff Chumley
__________________________________________________
From:

Ormsby, Michael C. (USAWAE)
<Michael.C.Ormsby@usdoj.gov>
Sent:
Monday, April 18, 2016 4:54 PM
To:
‘brian.winter@co.yakima.wa.us’;
‘joseph.brusic@co.yakima.wa.us’;
James Shike; adiaz@cityoftoppenish.us’; Richard Needham; Terry
Liebrecht; Cobb, Gregory (Gregory.Cobb@uniongapwa.gov); David
Quesnel (davidq@klickitatcounty.org);
‘bobs@klickitatcounty.org’
Cc:
Thayer, Craig (USMS); Kilgore, Kevin
(USMS); Hanlon, Thomas J.
(USAWAE); Tomson, Steven
(USAWAE); Harrington, Joseph H.
(USAWAE); Leahy, William J. (SE)
(FBI); ‘mbarker@waspc.org’; Melville,
Richard (richard.melville@bia.gov)
Subject:
Post Retrocession Jurisdiction
Attachments: Post-Retrocession Jurisdictional Flow
Charts 4-19-16.xlsx
Please excuse the e-mail instead of a call or broader
discussion, but given that Retrocession takes effect
at midnight, I wanted to share this information as
quickly as possible with you.
I am attaching the copy of a Jurisdictional Flow Chart
that you may be referring to that is problematic in a
couple of areas. I wanted to share with you my comments in those areas so that you are aware of them as
we move into this new era.

App. 91
Assuming that the crimes discussed are occurring
within the external boundaries of the Yakama Nation
Reservation, which is now defined in its entirety as “Indian Country” for the purpose of federal jurisdiction,
the chart should be modified to reflect the following:
1)

If the suspect is non-Indian and the victim is
Indian, misdemeanor jurisdiction lies with
the federal government (not the state or the
Nation). If the crime is a victimless crime,
then jurisdiction would be with the state.

2)

This approach would also apply (the federal
government has jurisdiction), if the suspect is
non-Indian and the victim is Indian and it is
a non-aggravated felony.

3)

To make matters a little more complicated or
confusing, and this is really a more technical
comment, the chart also provides that if a suspect is Indian and the victim is Indian and it
is a felony matter, that the case would be federal. That is correct, but it is also important to
remember that the Nation may have a similar
or companion charge that they can pursue in
Tribal Court. There are some charges (like
eluding, which is also a state felony) that
would be handled in Tribal Court. So not
every felony has to come to the USAO and
there are some cases that could be felonies,
but if they involve Indian suspects and Indian
victims they might be charged in Tribal Court.

This is not an easy area and as we transition into beginning later tonight, there will be stops and starts for
all of us. We need to stay in touch with and talk to each

App. 92
other. I will be in Toppenish on Friday and can arrange
to meet with/talk to you if you think that there is any
area where I can be helpful. As the week develops, we
should feel free to share with each other our experiences and issues that we think need to be addressed.
Thank you all for your positive approach and attitude.
Mike Ormsby
Direct line (509)835-6340
Cell Phone (509)999-6919

App. 93

App. 94

App. 95
JAY INSLEE
Governor
STATE OF WASHINGTON
Office of the Governor
April 19, 2016
The Honorable Sally Jewell, Secretary
US Department of the Interior
1849 C Street NW
Washington, D.C. 20240
Dear Secretary Jewell:
Thank you for taking the time to speak with me recently about an important issue of tribal sovereignty,
As we discussed, on January 27, 2014, I was pleased to
write to the then Assistant Secretary of Indian Affairs
Kevin Washburn, informing him that the state of
Washington had approved, in part retrocession petition submitted by the Confederated Tribes and Bands
of the Yakama Nation, I also included, with my letter,
the official Proclamation by which the State conferred
jurisdiction back to the Tribe. This was an historic first
step by our state to restore some areas of exclusive jurisdiction to the Yakama Nation that had been previously held by the State. We look forward to its
successful implementation this week.
Importantly, the Proclamation also denied key portions
of the Yakama Nation’s petition, and retained the
State’s authority in many areas. The letter I wrote to
Assistant Secretary Washburn and the Proclamation
that accompanied it both clearly expressed the State’s
intent in this regard, and was the full understanding

App. 96
of the Yakama Nation and impacted local jurisdictions
as well,
It was recently brought to my attention, however, that
the Department of the Interior may be ignoring the
State’s intent and the agreement reached by the parties, and that some of the state jurisdiction that it is
purporting to eliminate is not the jurisdiction to which
the State had agreed, This is deeply troubling. First
and foremost, pursuant to Public Law 83-280 and 25
U.S.C. §1323, the federal government cannot legally accept a retrocession of more jurisdiction than the State
has authorized and approved, and in this case the
State explicitly retained important areas of jurisdiction. Specifically, within the exterior boundaries of the
Yakama Reservation, in Operation of Motor Vehicles
on Public Streets, Alleys, Roads, and Highways cases
pursuant to RCW 37.12.010(8), the State retained civil
and criminal jurisdiction where any party – plaintiff,
defendant, or victim – 4s a non-Indian. The State also
retained jurisdiction over all criminal offenses involving non-Indian defendants or non-Indian victims in all
cases that were not addressed in Paragraphs I and 2 of
the Proclamation,
The State’s intent was previously expressed in our official communications with the Yakama Nation when
the petition was formally approved. On January 21,
2014, when I transmitted our approval to the Tribe, I
wrote, in part:
The Proclamation also grants to the Yakama
Nation civil and criminal jurisdiction within

App. 97
the exterior boundaries of the reservation in
Operation of Motor Vehicles on Public Streets,
Alleys, Roads, and Highway cases which do
not involve non-Indian plaintiffs, nonIndian defendants, or non-Indian victims.
Finally, also within the exterior boundaries of
the reservation, the state is retroceding
criminal jurisdiction over all offense which do
not involve non-Indian defendants or nonIndian victims.
An additional step in our retrocession approval process
was conferring with the local governments directly impacted by this endeavor. They were all supportive of
the tribe’s request, but cautious about how quickly and
expansively this retrocession would proceed. I know
that they greatly appreciated that the State was retaining jurisdiction in those cases that involved any
non-Indian parties. They were as surprised as I was to
learn that the clearly expressed intent of the State was
knowingly disregarded.
Honoring the State’s intent will benefit public safety
for all people who live or travel within the Yakama
Reservation by preserving concurrent jurisdiction
where non-Indian citizens are involved. As intended by
the State and understood by the Yakama Nation, the
State and the Yakama Nation will continue, to have
concurrent jurisdiction over crimes involving Indian
defendants and non-Indian victims, As intended by the
State and confirmed by U.S. Department of Justice regulation in 28 C.F.R. 50.25(a)(2), the State and the
United States will continue to have concurrent jurisdiction over crimes involving Indian defendants and

App. 98
non-Indian victims, and over crimes involving non-Indian defendants and Indian victims.
I hope that your office will follow the State’s request in
this matter and work to ensure that the original agree
exit is followed. I understand that our respective staffs
have had numerous discussions about these issues and
we look forward to continuing our work together.
Sincerely
/s/ Jay Inslee
Jay Inslee
Governor

App. 99
[SEAL]
United States Department of the Interior
OFFICE OF THE SECRETARY
Washington, DC 20240
JUN 20 2016
The Honorable Jay Inslee
Governor of Washington
Olympia, Washington 98304
Dear Governor Inslee:
Thank you for your letter of April 19, 2016, addressed
to Secretary Jewell regarding the retrocession of jurisdiction at the Yakama Nation (Nation). Secretary Jewell has asked me to respond on her behalf.
Retrocession was accepted by the United States on October 19, 2015, and became effective April 15, 2016, 1
would like to commend the State of Washington (State)
and the Nation for working together towards this accomplishment, Retrocession is intended to improve
public safety on the Yakama Reservation and advance
tribal self-governance and tribal sovereignty for the
Nation. The Nation has worked with local governments to address law enforcement concerns, and there
is a willingness to cooperate among all law enforcement entities.
In accepting retrocession, the Department of the Interior (Department) appreciates the opportunity to improve public safety for the Nation by restoring Federal
criminal jurisdiction, Regarding the concern raised in
your letter, retrocession was accepted according to the

App. 100
terms of the Proclamation of the Governor 14-01,
signed on January 17, 2014. It is our view that the
Proclamation is the final product resulting from formal
government-to-government meetings. The Nation has
indicated that it views the scope of retrocession as be
guided by the terms of the Proclamation.
I note that the Department of Justice regulation your
letter cites applies to the assumption of concurrent
Federal criminal jurisdiction A request-for concurrent
Federal jurisdiction differs from a request for retrocession in both form and effect. The. Proclamation received by’ the Department indicated that it was a
request for retrocession and was treated as such. However, the subsequent description of the State’s intended
jurisdictional scheme on the Yakama Reservation is
one of concurrent Federal, jurisdiction, which conflicts
with the legal effects of retrocession.
Considering these differences, I encourage the State
and Yakama Nation to work together to find common
ground and resolve any concerns regarding jurisdiction, Improving public safety in Indian Country remains a: priority for the Department, and I look
forward to working together to accomplish this important goal.

App. 101
Sincerely,
/s/ Lawrence Roberts
Lawrence S. Roberts
Acting Assistant SecretaryIndian Affairs

App. 102
[SEAL]
United States Department of the Interior
OFFICE OF THE SECRETARY
Washington, DC 20240
FEB 12 2016
The Honorable Jay Inslee
Governor of Washington
Olympia, Washington 98304
Dear Governor Inslee:
On June 20, 2016, then Acting Assisting Secretary –
Indian Affairs, Lawrence Roberts provided your office
guidance on the Department of the Interior’s views regarding the scope and effect of the retrocession of jurisdiction on the Yakama Indian Reservation. The
Department of the Interior is hereby withdrawing that
guidance and interpretation.
On July 27, 2018, the U.S. Department of Justice Office
of Legal Counsel published the enclosed opinion regarding the Scope of State Criminal Jurisdiction over
Offenses Occurring on the Yakama Indian Reservation. This document represents the legal position of the
United States in this matter and replaces all prior
guidance or interpretations.

App. 103
Sincerely,
/s/ Tara Sweeney
Tara Sweeney
Assistant Secretary –
Indian Affairs
Enclosure
cc: Chairman, Yakama Nation

